<html>
<title> - IMPORTANCE OF STATE AND LOCAL AUTHORITIES IN ENSURING CHEMICAL PLANT SECURITY</title>
<body><pre>[Senate Hearing 110-1046]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 110-1046
 
 IMPORTANCE OF STATE AND LOCAL AUTHORITIES IN ENSURING CHEMICAL PLANT 
                                SECURITY 

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON TRANSPORTATION SAFETY,
               INFRUSTRUCTURE SECURITY, AND WATER QUALITY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                       MARCH 19, 2007--NEWARK, NJ

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________

                        U.S. GOVERNMENT PRINTING OFFICE 

55-922 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         CRAIG L. THOMAS, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                                 ------                                

  Subcommittee on Transportation Safety, Infrustructure Security, and 
                             Water Quality

               FRANK R. LAUTENBERG, New Jersey, Chairman

BENJAMIN L. CARDIN, Maryland         DAVID VITTER, Louisiana Ranking 
AMY KLOBUCHAR, Minnesota             Member
SHELDON WHITEHOUSE, Vermont          CHRISTOPHER S. BOND, Missouri
                                     GEORGE V. VOINOVICH, Ohio

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 19, 2007
                           OPENING STATEMENTS

Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     1

                               WITNESSES

Payne, Hon. Donald M., U.S. Congressman from the State of New 
  Jersey.........................................................     3
    Prepared statement...........................................     5
Pallone, Hon. Frank, Jr., U.S. Congressman from the State of New 
  Jersey.........................................................     6
    Prepared statement...........................................     9
Menendez, Hon. Robert, U.S. Senator from the State of New Jersey.    10
    Prepared statement...........................................    14
Stanton, Lawrence, U.S. Department of Homeland Security..........    15
    Prepared statement...........................................    16
Bodine, Susan, Assistant Administrator, U.S. Environmental 
  Protection Agency..............................................    19
    Prepared statement...........................................    26
Corzine, Jon S., Governor from the State of New Jersey...........    28
    Prepared statement...........................................    30
Bollwage, J. Christian, Mayor, Elizabeth, New Jersey.............    32
    Prepared statement...........................................    34
Flynn, Stephen E., Council on Foreign Relations, New York, New 
  York...........................................................    36
    Prepared statement...........................................    39
Engler, Rick, Director, New Jersey Work Environmental Council, 
  Trenton, New Jersey............................................    42
    Prepared statement...........................................    47

                          ADDITIONAL MATERIAL

Prepared statement of Hon. James M. Inhofe, U.S. Senator from the 
  State of Oklahoma..............................................    53
Letters:.........................................................
    To Mr. Dennis Deziel, Department of Homeland Security, from 
      John P. Alexander, United Steelworkers.....................    55
    To Patrick K. Clark, Regional Administrator Occupational 
      Safety and Health Administration U.S. Department of Labor, 
      from John Pajak and Rick Engler, Work Environmental Council    66


                     IMPORTANCE OF STATE AND LOCAL 
            AUTHORITIES IN ENSURING CHEMICAL PLANT SECURITY

                              ----------                              


                         MONDAY, MARCH 19, 2007

                               U.S. Senate,
         Committee on Environment and Public Works,
     Subcommittee on Transportation Safety, Infrustructure 
                                Security, and Water Quality
                                                Newark, New Jersey.
    The committee met, pursuant to notice, at 10:30 a.m. in 
room 125, Rutgers School of Law, Baker Trial Courtroom, Center 
for Law and Justice, the Hon. Frank R. Lautenberg (chairman of 
the committee) presiding.
    Present: Senator Lautenberg.

      OPENING STATEMENT OF THE HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg.  At first, I think we have to say thank 
you to Rutgers for providing this facility. The only better 
place this Field Hearing might have been conducted was at the 
courthouse a few blocks down, but I think this is excellent. We 
are grateful to Rutgers for providing this facility to us. I 
think that this kind of a critical time to get going on 
protecting our citizens more. I want to be able to see my 
colleagues, so we wanted to talk about the problem that we see 
here at the same time that Governor Corzine and the New Jersey 
Legislature are working on improving the strength and the 
surveillance of the chemical industry in order to protect our 
citizens.
    So I want to welcome our witnesses and guests to this 
hearing of the Subcommittee on Transportation Safety, 
Infrastructure Security and Water Quality of the United States 
Environment and Public Works Committee. This hearing is a 
unique opportunity to bring an official Senate Hearing to New 
Jersey and the timing, as I said, could not be better for a 
concerted effort between the State of New Jersey and the 
Federal Government. Now I'll begin with my statement, and then 
I'm going to invite my friends and colleagues from the Congress 
who are here, Representatives Payne and Pallone to testify.
    On September 11th, the year 2001, our country was attacked. 
Terrorists used airplanes as weapons and killed more than 3,000 
people, including 700 from the State of New Jersey. Later, we 
learned that, as a result of the work of the 9/11 Commission 
and others, that many warnings were ignored that might actually 
have prevented the 9/11 tragedy. And yet we're now being warned 
of another deadly catastrophe that is waiting to happen. That 
threat is the possibility of a terrorist attack on a facility 
storing large quantities of deadly chemicals.
    Intelligence and law enforcement agencies have identified 
the Nation's chemical facilities as the next target for 
terrorists. In December 2001, it was reported that chemical 
training publications had been discovered not used by Osama bin 
Laden. And just this month the U.S. Military reported finding a 
bomb-making facility in Bagdad used to develop chlorine bombs. 
Six such bombs have been detonated in Iraq since January, and 
three of them used just this week.
    There is a reason for us to be especially vigilant here in 
New Jersey and the surrounding region. We know that the 2-mile 
stretch between Port Newark and Newark Liberty International 
Airport is known as the most dangerous 2 miles in America for 
terrorism. According to the FBI, there are 15,000 chemical 
facilities across the country. An attack on just one of them 
could break down critical infrastructures of a community, kill 
tens of thousands of people, and damage the city, local, State 
and regional economies.
    Given these facts, both the State of New Jersey and the 
Bush administration should be doing everything in their power 
to secure our chemical facilities to protect the public. New 
Jersey is doing its part. Since 2003, our State has adopted a 
series of measures to protect New Jersey's community. One of 
the most critical steps the State is taking is the requirement 
that the highest risk chemical facilities in New Jersey 
consider using Inherently Safer Technologies. What this means 
is that companies should look to replace the most dangerous 
chemicals with safer ones, still accomplishing their need to 
produce product. We want to reduce the threat, the consequence 
of a terrorist attack. And we've got to look at replacing these 
chemicals if it's possible.
    On Friday, Governor Corzine proposed strengthening New 
Jersey's chemical security laws and expanding the number of 
facilities that must consider adopting Inherently Safer 
Technologies. But the Governor is not alone in working to 
protect New Jersey's nearly 9 million residents. The chemical 
industry has worked with the State to develop a set of Best 
Practice standards that are mandatory at 150 facilities. And 
laborers, including the New Jersey AFL-CIO and Steelworkers 
Union, they're working with the industry to improve worker 
training on chemical security procedures.
    These efforts, combined with strong State Law, create an 
environment that best protects the people of New Jersey. But it 
is the Federal Government, and particularly the Bush 
administration, that's failing us. The Bush administration has 
proposed a Federal Regulation that could wipe out New Jersey's 
Chemical Security protections.
    In fact, the Administration knowing that the maneuver was 
so reckless, that they tried to burry their proposal on the 
Friday afternoon just before the Christmas break. So while most 
Americans were enjoying the holidays, the Administration was 
working to strike down New Jersey's Chemical Security Law and 
prevent the states from taking steps necessary to protect their 
residents.
    So how did the United States Department of Homeland 
Security defend this proposal to preempt our State law? Their 
answer, in summary, was that New Jersey could respond to 
disasters but do nothing to prevent them. We can't let this 
happen. Our friends, neighbors and fellow residents in New 
Jersey are entitled to better protection than that. Chemical 
plant security has always been important, even before 9/11. In 
fact, I introduced the first Chemical Security Bill in Congress 
in 1999.
    Now, I called this hearing today to shed light on how our 
State is increasing its level of chemical security and how 
damaging this Federal Department of Homeland Security proposal 
would be. And I want to say it loudly and clearly: I'm going to 
do everything in my power to reverse this Administration's 
underhanded maneuver. As a member of this Committee, and the 
Senate's Appropriations Committee, I'm going to work with my 
colleagues, those seated here now. We'll do whatever we can to 
maintain New Jersey's right to enact laws to protect the people 
of our State.
    Now, we've got four panels of witnesses here today, and I 
am grateful for those who will be testifying. I'm particularly 
pleased to welcome two of my good friends and colleagues from 
the House of Representatives on this issue, Congressman Donald 
Payne and Frank Pallone. I want to thank them each for being 
here, for working with me in Washington, to protect New Jersey 
and to protect the rights of every state to defend their 
residents from harm. So we thank all of you for being here 
today. Senator Menendez is running a little bit late, and he 
will testify a little bit later.
    So now, since we are in Congressman Payne's District, a 
District that houses not only the chemical facilities that 
we're talking about, but people who are living in close 
quarters with one another where an attack could be jeopardize 
lots and lots of lives of people, Congressman Payne.

              STATEMENT OF HON. DONALD M. PAYNE, 
         U.S. CONGRESSMAN FROM THE STATE OF NEW JERSEY

    Mr. Payne. Thank you very much, Senator Lautenberg, for 
calling this very important U.S. Senate Committee on 
Environment and Public Works' Transportation Safety, 
Infrastructure Security and Water Quality. And it's so 
important that you decided to hold this very vital Field 
Hearing on security of our chemical facilities right here in 
this District.
    We appreciate all the work that you've done for so many 
years in the U.S. Senate, and are very pleased that you now 
will be chairing this very important subcommittee. And to also 
my colleague, Congressman Pallone, who has done so many great 
things on healthcare. And for us to be at this great law 
school. We worked so closely with the Newark Community and the 
entire State, and the opportunity also to have the students 
from this great law school here in addition to others.
    Let me say that September 11, 2001 reminded us of the many 
security vulnerabilities our country faced and, unfortunately, 
still had. That tragedy also affected so many people in my 
District right here, but also statewide because, as you know, 
many of the workers of the Twin Towers lived in New Jersey. And 
many of the courageous first responders hailed from our State. 
And many of the first responders from Newark and Jersey City 
went across the Hudson to work there at the World Trade Center.
    So we were very close in touch because, as you know, 5 
minutes from here you have the Path train, which took thousands 
of people, and still do, each day to the World Trade Center 
District. And so it's been a very personal and traumatic 
situation for us here in the 10th Congressional District.
    The issue of chemical facility security is not a new one. 
Dating back even before 9/11, the Nation's 15,000 chemical 
facilities, including over 350 State industrial, petroleum, and 
chemical storage and transfer facilities, have actually been 
sitting ducks--defenseless if a terrorist attack ever happened 
again. As the face and tactics of terrorists continue to 
change, we must be mindful and vigilant about any and all 
vulnerabilities.
    The New York Times, in February 2005, frankly stated that 
``Washington has caved to pressure from interest groups, like 
the chemical industry, that have fought increased security 
measures.'' So it must be asked, ``Why would we leave the 
security of our State and our citizens to an Administration 
that so easily kowtows to our Nation's securities and keeps our 
Nation's security at risk?
    In the silence of the Federal Government, New Jersey, 
taking its security into its own hands, created State 
regulations which are among the strongest in the Nation. 
Unfortunately, though, the Department of Homeland Security 
misguidedly wants to have their weaker Federal regulations 
trump our State's guidelines. This is wrong. The plan the 
Congress handed in late 2006 to DHS would undue the hard work 
of our State regulators. While congress did not explicitly give 
Homeland Security the right to preemption, they are unwisely 
proposing it and therefore are rightfully receiving much 
criticism.
    We are currently holding this hearing here in my District, 
which is near what is considered by the FBI as the ``most 
dangerous 2 miles in America.'' It is nonsensical to allow lax 
security guidelines to rule over an area with such a 
connotation, especially when stronger regulations exist that 
are on the books. It is also illogical to favor softer security 
provisions especially in New Jersey, the densest spaced 
population in the Nation, when a terrorist attack would be 
detrimental to so many people because of that density in 
population.
    According to the New Jersey Work Environmental Council, 
over 20 facilities, some of which are in Hudson, Middlesex, 
Passaic and Union Counties, exist where in the event of a 
worst-case release of toxic chemicals, millions of people 
extending even beyond New Jersey's borders would be at risk.
    In fact, Kuehne Chemical Company in South Kearny borders 
Newark. If an intentional or accidental chemical release 
happened to occur, an estimated 12 million people extending 
into New York City and its boroughs could be harmed. Toxic 
chemicals such as chlorine, hydrochloric acid, ammonia and 
other chemicals can just simply waft as highly hazardous toxic 
clouds in the air leaving entire neighborhoods, including 
schools, hospitals and other public areas victim to chemicals 
that can prove to be fatal. Being that New Jersey is a major 
transportation corridor for the Northeast and the Eastern 
seaboard, it does not take far leaps of one's imagination to 
find the possible damage a chemical facility attack could have.
    There is a saying, ``If you want something done right, then 
you have to do it yourself.'' In regard to chemical facility 
safety, that saying holds great value for our State of New 
Jersey. We know, after much analysis, what is at stake and 
therefore what our State needs. We are, especially because of 
our acute risk, one of the strongest states in the nation on 
the issue of chemical safety, as I've mentioned.
    New Jersey has made great strides to protect our State's 
critical infrastructure. In fact, in the fall of 2005, the 
Department of Environmental Protection introduced, along with 
then Governor Richard Codey and the Domestic Security 
Preparedness Task Force, Best Practice Standards--the firs in 
the nation. In another maverick move, New Jersey has allowed, 
through an Administrative Order, workers and Union 
representatives to be vocal on the issue. They are, many times, 
our eyes and ears and therefore would be the best to inform us 
legislators of vulnerabilities in our security standards. It 
fares well for no one if the Federal Government weakens these 
types of regulations. While a great deal has been done, we must 
move beyond analysis into action. While provisions such as the 
Inherently Safe Technologies have been introduced, we must do 
more. Let us use what we have learned to galvanize new 
initiatives such as built-in in security provisions that will 
make millions of New Jerseyans as well as inhabitants of other 
states safer.
    Once again, let me thank you, Senator Lautenberg, for 
calling this very important hearing and thank you for the 
opportunity for me to speak.
    Senator Lautenberg.  Thank you, Congressman Payne, for that 
statement. When it's that close to home, you feel the heat, and 
that's what we're feeling in this State of ours. Thank you very 
much. Congressman Pallone, you and I have worked on lots of 
things affecting the environment, but none of the issues that 
we've worked on compares to the risk that we are facing here 
now. And in your Congressional District, there's a lot of 
activity to make the air safer and make the water cleaner, etc. 
And a perfect addition to that is to make sure that we protect 
all of our residents, those of your constituency, as well as 
Congressman Payne. And we've worked together in the past, and I 
look forward to us working together in the future.
    Now, please, Representative Pallone, thank you.

                                 ______
                                 
                  Statement of Hon. Donald M. Payne, 
               U.S. Senator from the State of New Jersey
    Let me thank Senator Lautenberg for arranging for the Senate 
Committee on Environment and Public Works' Transportation Safety, 
Infrastructure Security and Water Quality Subcommittee to come to New 
Jersey to hold this vital field hearing on the security of our chemical 
facilities. Residents of New Jersey have a great champion in Senator 
Lautenberg, and we are fortunate that he is serving on a Committee with 
such important jurisdiction over public health and safety.
    September 11, 2001 reminded us of the many security vulnerabilities 
our country faced. Unfortunately, while we have taken measures to 
protect against another attack, many vulnerabilities remain. The 
massive tragedy of 9/11 forever changed the lives of thousands of 
people both in my Congressional district and statewide. As you know, 
many of the workers of the Twin Towers lived in New Jersey and many of 
the courageous first responders hailed from our State.
    The issue of chemical facility security is not a new one. Dating 
back even before 9/11, the nation's 15,000 chemical facilities, 
including over 350 State industrial, petroleum, and chemical storage 
and transfer facilities, have been sitting ducks--defenseless if a 
terrorist attack ever happened again. As the face and tactics of 
terrorists continue to change, we must be mindful and vigilant about 
any and all vulnerabilities. The New York Times, in February 2005, 
frankly stated that ``Washington has caved to pressure from interest 
groups, like the chemical industry, that have fought increased security 
measures.'' So it must be asked, ``Why would we leave the security of 
our State and our citizens to an administration that so easily kowtows 
to industry when our Nation's security is at risk?'' In the silence of 
the Federal Government, New Jersey, taking its security into its own 
hands, created State regulations which are among the strongest in the 
nation. Unfortunately, the Department of Homeland Security misguidedly 
wants to have their weaker Federal regulations trump our State's 
guidelines. While Congress did not explicitly give Homeland Security 
the right of preemption, they are unwisely proposing it and therefore 
are rightfully receiving much criticism. It is outrageous that the 
Department of Homeland Security is threatening to undo the hard work of 
our State regulators.
    We are currently holding this hearing in my district which is near 
what is considered by the FBI as the ``most dangerous two miles in 
America''. It is nonsensical to allow lax security guidelines to rule 
over an area with such a designation, especially when stronger 
regulations exist and are on the books. It is also illogical to favor 
softer security provisions especially in New Jersey, the densest State 
in the nation, when another terrorist attack would be absolutely 
devastating and would impact countless lives.
    According to the New Jersey Work Environment Council, over 20 
facilities, some of which are in Hudson, Middlesex, Passaic and Union 
Counties, exist where in the event of a worst-case release of toxic 
chemicals, millions of people extending even beyond New Jersey's 
borders would be at risk.
    In fact, Kuehne Chemical Company in South Kearny borders Newark. If 
an intentional or accidental chemical release happened to occur, an 
estimated 12 million people extending into New York City and its 
boroughs could be harmed. Toxic chemicals such as chlorine, 
hydrochloric acid and anhydrous ammonia can just simply waft as highly 
hazardous toxic clouds in the air leaving entire neighborhoods 
including schools, hospitals and other public areas victim to chemicals 
that can prove to be fatal. Being that New Jersey is a major 
transportation corridor for the Northeast and the Eastern seaboard, it 
does not take far leaps of one's imagination to see the possible damage 
a chemical facility attack could have.
    There is a saying, ``If you want something done right, then you 
have to do it yourself.'' In regards to chemical facility security, 
that saying holds great value for our State. We know, after much 
analysis, what is at stake and therefore what our State needs. We are, 
especially because of our acute risk, one of the strongest States in 
the nation on the issue of chemical facility security--and I am proud 
of the fact that Senator Lautenberg and I have two of the strongest 
pro-safety and pro-environmental records in the entire U.S. Congress. 
New Jersey has made great strides to protect our State's critical 
infrastructure. In fact, in the fall of 2005, the Department of 
Environmental Protection introduced, along with then Governor Richard 
Codey and the Domestic Security Preparedness Task Force, Best Practice 
Standards--the first in the nation. In another maverick move, New 
Jersey has allowed, through an Administrative Order, workers and union 
representatives to be vocal on this issue. They are, many times, our 
eyes and ears and therefore would be the best to inform legislators of 
vulnerabilities in our security standards. It fares well for no one if 
the Federal Government weakens these types of regulations.
    While a great deal has been done, we must move beyond analysis into 
action. While provisions such as the consideration of Inherently Safer 
Technologies have been introduced, we must do more. Let us use what we 
have learned to galvanize new initiatives such as built-in security 
provisions that will make millions of New Jerseyans as well as 
inhabitants of other States safer. I look forward to working with 
Senator Lautenberg and our other colleagues to achieve this goal, and 
again, I thank the Senator for convening today's hearing.

             STATEMENT OF HON. FRANK PALLONE, JR., 
         U.S. CONGRESSMAN FROM THE STATE OF NEW JERSEY

    Mr. Pallone.  Thank you, Senator Lautenberg. And thank you 
for what you said. You really have been the leader on this 
issue in the Senate.
    First of all, I don't want to reference you as Chairman, 
because we're very happy with the fact that, not only are you 
in the majority, but the Chairman of this subcommittee, and so 
many others that deal with this issue, because it means that 
you can make a difference, as you always have, on this and so 
many environmental issues. So I want to thank you for having 
the hearing here and inviting myself and Don Payne to be here.
    I should also mention, it's very nice to be at Rutgers Law 
School. I know about the fact that this institution, for many 
years, has been sort of the progressive voice, if you will, and 
has many clinical programs on environment. So I think it's 
particularly appropriate that you had this hearing here today 
at Rutgers Law School in Newark.
    I just wanted a reference back initially to what you said 
earlier in your opening statement about New Jersey and the 
reason, I think you stated very clearly, why it is so important 
that the Federal Government not preempt New Jersey laws with 
regard to chemical security is because New Jersey----
    and I suppose you can make this argument about any State--
--
    but I think particularly our state, because of the history 
of having so many chemical facilities, we know best what to do.
    And the notion of preempting Governor Corzine and the State 
DEP and the others who have made decisions with the legislature 
on how to proceed in what I consider a much stricter and more 
protective of the public safety way. And to have that preempted 
on the Federal level is a mistake.
    You talk about how the Governor on Friday is expanding the 
number of facilities looking into safer technologies. I would 
argue that the Federal Government should have stricter 
standards, too. But in the absence of that, for the Federal 
Government to step in and say that New Jersey can't impact and 
have tougher standards, when the people in New Jersey are on 
the grounds and the Governor and other officials are on the 
ground and know what needs to be done here is a mistake.
    The whole notion of the Federal preemption and the way it 
makes it more difficult for states with stricter standards to 
operate just goes against the grain because the State people 
know what's best. They're on the ground. They deal with these 
facilities. They know the dangers. They know that using safer 
technologies would be a better way to go. So I just wanted to 
point that out, because I know that you stressed it in your 
opening statement.
    And I have to be honest, for years we've been working with 
not only the State Government, but also the constituent groups, 
the AFL-CIO. I don't know how many times Charlie Perkanick 
(phn) has mentioned this to me. This goes back to previous 
Administrations with Brad Campbell and Lisa Jackson, working 
with the AFL and labor groups, including the Work Environmental 
Group, to try to come up with these standards and training and 
the mechanism that we use. So it is such a shame, just from a 
good government point of view, to have that all wiped out 
because the Federal Government decides they want to do 
something different.
    Now, the other thing I wanted to stress today is that what 
I consider incredible arrogance on the part of the U.S. 
Department of Homeland Security in willfully disregarding the 
intents of the U.S. Congress by preempting state and local laws 
on chemical security, because I believe, and I was there 
listening to this, and I know the parties involved, it was not 
the intent when we passed this Appropriations bill last year, 
and that language was put in the last of the minute. It was not 
the intent to preempt the State laws.
    There was a clear exchange on the floor of the House of 
Representatives between the Chairman of the Homeland Security 
Committee, a friend of mine, and the Ranking Member of the 
Homeland Security Appropriations Subcommittee, during which 
they agreed that the temporary chemical security provision 
included in an Appropriations Bill last year was not intended 
to preempt the rights of States like New Jersey. They 
essentially said that.
    Unfortunately, what the Department of Homeland Security 
decided to do was to ignore those clear directions and, 
instead, they cite a quote from the Chairman, then Chairman, 
Republican Chairman of my Committee, the Energy and Commerce 
Committee Chairman Joe Barton of Texas, saying the opposite.
    And you have to understand--and I know this is kind of 
bureaucratic, Senator, and maybe I shouldn't get into it--but I 
had tried many times to get that bill considered in my 
committee, the Energy and Commerce Committee. And Joe Barton 
then and continued to say that they were not going to exercise 
jurisdiction.
    So for the Department of Homeland Security, rather than 
referencing the exchange on the floor, which was with the 
Committee in jurisdiction, the Homeland Security Committee, and 
their clear intent that said this was not supposed to preempt 
state law and, rather, go to the other committee, my committee, 
which decided not to exercise jurisdiction, and to say that 
this was intended to preempt the State law, is totally contrary 
to what actually happened.
    And I know it sounds very bureaucratic, but I just have to 
stress that, because a lot of times I think that these 
exchanges and the intent needs to be brought out. So, in my 
opinion, the Department of Homeland Security is disregarding 
the will of Congress in saying that State Law has been 
preempted.
    Now, you know that we're in the process now of putting 
together and introducing legislation again in both the Senate 
and the House that would make it clear that there is no Federal 
preemption of stronger standards. That would also make it so 
that, on a Federal level, there would be a mandate to use the 
safer technology.
    There's other things in the legislation, as well, but I 
think that the most important development right now on the 
House side is that, in the Supplemental Appropriations Bill, 
the Supplemental Bill, which was reported out of the 
Appropriations Committee last Thursday but is expected to come 
for a vote in the House this Thursday, we do once again have 
language in it that makes it clear that the State Law is not 
preempted, and also makes it clear that there was no intention 
to prohibit the Federal Government from moving ahead with safer 
technologies, as well.
    So if that legislation passes the House, and ultimately 
survives conference--and I know we're going to work together to 
make sure that it does--then once again we would send to the 
president legislation language that would make it clear that 
this preemption doesn't exist and States like New Jersey can 
move ahead and cover more plants and have better Right-to-Know 
provisions and also move to safer technologies.
    But in the absence of that, obviously, you and I will still 
try to move ahead with our legislation, which I think is a good 
thing in any case.
    The one thing that I just wanted to stress again is that 
our State put together this Comprehensive Plan to improve 
security and provide for greater worker safety, working with 
the AFL, working with all the different departments. And the 
reason that they moved ahead with this before the Federal 
Government adopted any language was because they felt it was 
necessary because of what Congressman Payne said, that we have 
this situation here where we have so many chemical plants that 
we needed to take action.
    And I think that it should be understood, at every level, 
either with the current law or through any legislation that we 
pass in the supplemental or through our efforts, that any State 
that takes, moves ahead with higher standards, should have the 
flexibility to accomplish that goal, and that nothing should be 
done to preclude States like New Jersey, who have this problem 
and who know what to do, from being able to move forward with 
their own program.
    And with that I'll just end and thank you again for all 
you've done on this issue. I really think it's crucial. And 
it's not just because of the response to 9/11, but because of 
perceived threats, as you mentioned, that we may also have in 
the future. So thank you again.
    Senator Lautenberg.  Thanks very much, Congressman Pallone 
and Congressman Payne. I appreciate the fact that the both of 
you have found the time to be here with us and indicate how 
closely we're working to try and deal with this problem. And I 
appreciate the fact that you mentioned the fascinations that 
were going on in the Congress to try and burry what was not at 
all an acceptable inclusion, that we would give the Federal 
Government the right to override New Jersey law, a strong 
environmental protection law, one designed to keep our citizens 
secure in an area that far too frequently is a tempting target 
for terrorist activity.
    And we're pleased now to have been joined by our good 
friend and colleague, Senator Menendez. Senator Menendez and I 
have worked together on environmental protection actions in his 
earlier days when he was a member of the House of 
Representatives. And, by the way, a very high-ranking member of 
the House of Representatives, and in a very short period of 
time has become a very senior member of the United States 
Senate. Well-respected. His opinions are secure and his work is 
notable.
    So I'm pleased to see Mr. Menendez in this position. And 
just one quick last reminder, he's my junior. Senator, please 
feel free to say all the good things.

                                 ______
                                 
                 Statement of Hon. Frank Pallone, Jr., 
             U.S. Congressman from the State of New Jersey
    Chairman Lautenberg, thank you for holding this hearing and for 
inviting me to testify before you today. You and I have worked together 
numerous times on efforts to secure chemical facilities in New Jersey 
and around the country, and I salute your leadership and hard work on 
this issue.
    I want to take this opportunity to express my extreme displeasure 
at the incredible arrogance of the U.S. Department of Homeland 
Security, which has chosen to willfully disregard the intent of the 
United States Congress by preempting State and local laws and 
regulations on chemical security.
    There was a very clear exchange on the floor of the U.S. House of 
Representatives between the Chairman of the Homeland Security Committee 
and the Ranking Member of the Homeland Security Appropriations 
Subcommittee, during which they agreed that the temporary chemical 
security provision included in an appropriations bill last year was not 
intended to preempt the rights of States like New Jersey. 
Unfortunately, DHS chose to ignore those very clear directions and 
instead cite a quote from Energy and Commerce Committee Chairman Joe 
Barton, whose committee did not exercise jurisdiction over chemical 
security during the 109th Congress.
    These may seem like bureaucratic legal details of congressional 
intent, but they are critical. The Bush administration has once again 
glibly disregarded the will of Congress, and they are apparently 
uninterested in providing for the safety and security of New Jerseyans. 
The Republican Congress gave this kind of behavior a free pass, but 
it's time for that to stop.
    That's why Chairman Lautenberg and I are working to take away any 
ability of DHS to preempt State or local regulations that are stronger 
than Federal ones. I'm pleased that the House will take up a 
supplemental spending bill this week that includes chemical security 
language I supported. Our intent is to ensure that DHS can't undo New 
Jersey's chemical security regulations, which were intended to protect 
the State's citizens in the face of Federal inaction.
    Chairman Lautenberg and I had hoped last year that we would be able 
to pass a bill to create a comprehensive security regime for chemical 
facilities across the country. But under pressure from industry, the 
Republican Congress refused to take action and the Bush administration 
dragged its feet for years, even after 9/11 exposed serious weaknesses 
in our national security. Expert after expert called for us to pay 
serious attention to the need to secure chemical facilities--including 
ones in New Jersey that could potentially threaten the lives of 
millions of people.
    Finally, at the last minute, the Republican Congress last year 
passed weak, industry-friendly language providing temporary 
authorization for chemical security regulations. From there, DHS 
stepped much further in the direction of helping the industry by 
attempting to wipe away New Jersey's first-in-the-nation State chemical 
security rules.
    The fact is that New Jersey had to step up when the Federal 
Government fell down on the job. Our State reached out to industry and 
plant workers to develop a comprehensive plan to improve security and 
provide for greater worker safety. That's too much for this 
Administration, apparently. They jumped at a chance to override New 
Jersey's regulations--even if they had to use imaginary authority to do 
so.
    But as Governor Corzine can tell us, New Jersey has stepped up and 
worked in innovative ways to protect its citizens from threats that 
could come from facilities located within the staff. They've done so 
because they know the State, the facilities here, and our 
vulnerabilities much better than bureaucrats in Washington. And they've 
done so because the Federal Government did nothing.
    Federal legislation and regulations concerning chemical security 
should allow States to set higher standards that the Federal 
Government. We have the unfortunate combination of both a large number 
of facilities and a high population density, so the consequences of 
insufficient security are too great in our State. New Jersey's rights 
must be preserved.
    Again, Mr. Chairman, thank you for holding this hearing. I look 
forward to continuing to work with you.

              STATEMENT OF HON. ROBERT MENENDEZ, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Menendez.  Well, your Honor--I mean, Mr. Chairman--
let me just say, at age 53, Mr. Chairman, it's good to be 
Junior all over again. So let me thank you for holding this 
hearing here in New Jersey, which I believe with your 
leadership--I appreciate the fact that your chairmanship of 
this subcommittee creates an opportunity to rivet attention on 
an issue that we care about deeply in New Jersey, but I think 
has national impact. And, once again, your long history in the 
Senate has been at the forefront of a whole host of issues that 
have national impact, Superfund, the whole question of cleaning 
up the air in our airlines, as we have dealt with smoking 
issues. On so much you've been at the forefront of it. And once 
again today's hearing shows your leadership in a critical 
issue. And I'm pleased to be joined by my close colleagues from 
the House, who will have a tremendous opportunity to help us 
collectively have a strong response from our delegation to what 
the Department of Homeland Security wants to do, which I 
fundamentally believe----
    Senator Lautenberg.  Let's see if we can do anything to 
prevent the echo. (Pause in the proceedings)
    Senator Menendez.  Let me just say, Senator Lautenberg, 
what you did today is incredibly important. We're not far away 
from the area that many of us in New Jersey know has been 
deemed the ``most dangerous two miles'' in America by the FBI. 
Here, at Rutgers Law School in Newark, we sit within 5 miles of 
the Kuehne chlorine plant in southern Kearny, in a range that 
would without question, if devastated by an attack, would have 
an enormous consequence to millions of people not just in New 
Jersey, but millions of people throughout the region.
    And as we speak, as this hearing goes on, the Kearny Police 
Department has informed us that the Department of Homeland 
Security wants to take away the surveillance cameras and the 
electronic monitoring systems that have been put in place at 
that location because of issues of funding.
    Now, this is a prime example of how we cannot delegate to 
the Department of Homeland Security the question of what 
standards that we set, that New Jersey chooses to set in the 
protection of its own citizens, which are greater than that 
which the Federal Government has chosen.
    And this is a perfect example of how we cannot, at least at 
this stage in time, depend on the Department of Homeland 
Security to do the right thing. Now, I hope we'll turn that 
reality around, but it shouldn't even be a question. A chemical 
plant that has the potential to kill millions of people within 
the New York/New Jersey region should not be the subject of a 
lower standard or a greater risk, but the subject of a higher 
standard and a more secure set of circumstances.
    Now, for those of us here, who have worked long to improve 
the security of critical infrastructure in our state, these are 
the scenarios we have worked furiously to avoid. For residents 
of New Jersey, many of whom have grown up in the shadows of 
chemical plants, down the road from port container shipyards, 
or in the backyards of railroad lines that transport hazardous 
materials, these are the types of threats we've had to grapple 
with on a daily basis.
    In New Jersey, we are acutely aware of the risks we face. 
Not only did we experience the horror and the impact of 
September 11th, not only do we live across the river from a 
site that is a daily reminder, we have our own risks that are 
unique to New Jersey and to those states similarly situated 
that have other chemical industries located in their states. 
Nowhere else in the country are densely populated areas 
sandwiched between a multitude of wide-ranging threats, 
including a major international airport, the largest seaport on 
the east coast, proximity to the nation's largest metropolis, 
and all within a tight cluster of chemical plants known as the 
chemical coastway. So, when it comes to our security, the 
bottom line is, no one knows what we need better than our 
State.
    And that is the key distinction over which we are currently 
locked in a battle of the Department of Homeland Security. The 
Department's assumption that it can and should preempt chemical 
security measures at the State level should be, at a minimum, 
alarming to New Jerseyans. The Department's proposed 
regulations would not just jeopardize the progress we are 
making here in New Jersey to make sure our communities are safe 
- it would take us backwards. The proposed laws would fail to 
cover many dangerous chemical facilities unique to the State. 
They wouldn't push chemical makers to switch to less dangerous 
technology or materials that are available within the 
marketplace, that can still create a product that would be 
profitable to the industry, but at the same time create greater 
protection for all of our citizens, something New Jersey has 
already been doing.
    The fact is, we are the only State that has acted to enact 
such strict provisions and provide enforceable standards. So, 
instead of working to come up with regulations that could 
supercede the progress we have made and preempt future attempts 
to tighten our regulations, I would hope they would use New 
Jersey as an example, and build off the steps we have taken.
    More than 5 years after September 11th, the fact that the 
Federal Government has not led the way to secure our chemical 
plants is nothing short of a failure. Instead, our local police 
departments, our state legislatures, and communities, are 
leading the charge. If there is anything we learned from 
September 11th, Mr. Chairman, it was that we will not always be 
able to preconceive the nature of an attack or imagine what 
could be used as a weapon against us. What was once 
inconceivable--a simple letter laced with Anthrax becomes a 
deadly weapon, a commercial airplane used every day for 
commerce and tourism becomes deadly weapons of mass 
destruction. These and other realities changed our world 
forever. Yet, we refuse to come to terms with a stark reality: 
The terrorists are creative and they work every day to find a 
new vulnerability to exploit. At a minimum, we have to be at 
least as creative as they are, and certainly as it relates to 
the chemical industry and the nature of the industry. The 
creativity doesn't have to be so expansive. It's pretty 
obvious.
    Meanwhile, we have yet to see any innovative approach from 
the Department of Homeland Security on chemical security. This 
latest development from the Department is concerning not just 
because it calls into question the future of New Jersey's 
chemical security, but because it signals the Department is on 
the wrong track. Instead of looking ahead to develop creative 
ways to secure our plants, the Department has put forward 
proposal that threatens to undermine our own protections.
    Mr. Chairman, I know with your leadership and working with 
our colleagues we will not, and should not, be at the whim of 
an agency that has yet to prove it grasps the gravity and the 
urgency of securing our chemical plants. New Jersey needs the 
flexibility to enforce its own, tougher standards.
    I'm sure that the Chairman recalls the days where our 
colleagues, when they had the majority, would say, ``The states 
know best, the states know best.'' We should delegate to the 
States all of these block grants. We should delegate to the 
States all of this authority. And yet we do not hear one voice, 
in this most critical issue on security, say, the State knows 
best. On the contrary, the State does not know the best in 
terms of the Department of Homeland Security.
    I think I speak for all of us on the panel that will work 
to ensure that New Jersey's right is upheld and that our 
security is not compromised. The stakes are simply too high. 
And I look forward to working with you, Senator Lautenberg, to 
make sure our rights are preserved in this regard and we are 
not preempted.
    Senator Lautenberg.  Well said, Senator. Is there an 
intimation in what you've said that there could be, perhaps, 
other voices trying to communicate with the Department of 
Homeland Security, which might have a greater influence in the 
stakes themselves?
    Senator Menendez.  Well, obviously, clearly, the suggestion 
that the fundamental principle we heard from our colleagues, 
that the states know best, in this particular case, seems to be 
undermined. And so one would have to ask, Well, what makes the 
states less knowledgeable about its own securities and its own 
unique perspective as it relates to this industry, which the 
FBI has cited as part of the equation as ``the most dangerous 
two miles in America.''
    You got to ask, Well, who is creating the pressure points 
to subvert the State standards to a lesser Federal standard?
    Senator Lautenberg.  Thanks very much, Senator Menendez, 
Councilman Pallone. For those of you within earshot, we are 
determined to change the course that has been laid out by the 
Department of Homeland Security. To put it in a term in the 
vernacular, ``They just don't get it.'' And we're going to 
change that. Thank you.
    Senator Menendez.  Thank you.
    Senator Lautenberg.  Now I'd like to call our second panel 
of witnesses to the table. The second panel consists of Mr. 
Larry Stanton from DHS, Susan Bodine from EPA. And Ms. Bodine 
will be joined at the witness table, I understand, by Deborah 
Dietrich. She's the Director of the Emergency Management at 
EPA. And we welcome all of you here.
    At the outset, I must make say a couple of things here. I 
had hoped that the United States Department of Homeland 
Security Secretary Michael Chertoff, who is himself a native of 
Elizabeth, New Jersey, or other more senior-level--and we 
welcome you, Mr. Stanton, but we had extended an invitation to 
DHS to bring in the highest level of persons at the Department. 
However, they declined to attend.
    And, again, it's troubling that the top officials at the 
Department of Homeland Security refuse to come here to defend 
their decision to preempt New Jersey's chemical Security Law. 
And I mean no disrespect to Mr. Stanton, the DHS witness who's 
here with us today, and I appreciate the fact that you've 
traveled this distance to New Jersey to discuss this important 
issue.
    Our country depends on capable and hard-working Federal 
employees like those before us from the Department of Homeland 
Security and the Environmental Protection Agency. The 
Environmental Protection Agency currently plays a secondary 
role to DHS in the area of chemical security, but it retains an 
enormous amount of the Federal Government's skills and 
expertise about the safe and secure operation of chemical 
facilities.
    Now, EPA also has experience in working with state and 
local governments on safety and security related matters. And 
the witnesses with us today, Larry Stanton, Deputy Director of 
the Risk Management Division of the U.S. Department of Homeland 
Security; Susan Bodine, Assistant Administrator for the 
Environmental Protection Agency's Office of Solid Waste and 
Emergency Response, and Ms. Dietrich, who I mentioned earlier.
    We're pleased to have all of you here, and we'll start by 
asking Mr. Stanton to begin. Now, what I've asked for is a 5-
minute summary of your statement. The detailed statement that 
you've prepared will be considered, entered into the record, 
but I would ask you, please, to try to adhere to the time 
frame. I'll give you a general reminder if you go over a little 
bit. If you go over a lot, it won't be so gentle, but we thank 
you very much.
    Mr. Stanton, please.

                                 ______
                                 
                  Statement of Hon. Robert Menendez, 
               U.S. Senator from the State of New Jersey
    Mr. Chairman, Thank you for the invitation to appear before you 
today on this critical issue. I am pleased that we have a strong 
commitment from our New Jersey congressional delegation to address 
serious concerns facing our state's ability to regulate chemical 
security, and that our senior senator has made this such a forefront 
issue. I have been proud to join you in your efforts on chemical 
security and I thank you for holding this hearing.
    Today, we are not far from the area that many of us from New Jersey 
know has been deemed the ``most two dangerous miles'' in America by the 
FBI. Here, at Rutgers Law School in Newark, we sit within 5 miles of 
the Kuehne plant in South Kearny, in a range that would without 
question be devastated by an attack at that facility. This is not a new 
reality. For those of us here, who have long worked to improve the 
security of the critical infrastructure in our state, these are the 
scenarios we have worked furiously to avoid. For residents of New 
Jersey, many who have grown up in the shadows of chemical plants, down 
the road from port container shipyards, or in the backyards of railroad 
lines that transport hazardous materials, these are the type of threats 
have had to grapple with on a daily basis.
    In New Jersey, we are acutely aware of the risks we face. Not only 
did we experience the horror and the impact of September 11th, not only 
do we live across the river from a site that is a constant reminder of 
what we are up against, but we have are own risks that are unique to 
New Jersey. Nowhere else in the country are densely populated areas 
sandwiched between a multitude of wide-ranging threats, including a 
major international airport, the largest seaport on the east coast, 
proximity to the nation's largest metropolis, and all within a tight 
cluster of chemical plants. So, when it comes to our security, the 
bottom line is, no one knows what we need better than our state.
    And that is the key distinction over which we are currently locked 
in a battle with the Department of Homeland Security. The Department's 
assumption that it can and should pre-empt chemical security measures 
at the state level should be, at a minimum, alarming to New Jerseyans. 
The Department's proposed regulations would not just jeopardize the 
progress we are making here in New Jersey to ensure our plants are 
secure and our communities are safe--it would take us backwards. The 
proposed rules would fail to cover many dangerous chemical facilities 
unique to the state. They wouldn't push chemical makers to switch to 
less dangerous technology or materials, something New Jersey has 
already been doing. The fact is, we are the only state that has acted 
to enact such strict protections and provide enforceable standards. So, 
instead of working to come up with regulations that could supersede the 
progress we have made and pre-empt future attempts to tighten our 
regulations, I would hope they would use New Jersey as an example, and 
build off the steps we have taken.
    More than 5 years after September 11th, the fact that the Federal 
Government has not led the way to secure our chemical plants is nothing 
short of a failure. Instead, our local police departments, our state 
legislatures, and communities, are leading the charge. If there was 
anything we learned from September 11th, it was that we will not always 
be able to pre-conceive the nature of an attack or imagine what could 
be used as a weapon against us. What was once inconceivable--that 
commercial planes we use every day could become deadly weapons of mass 
destruction--changed our world forever. Yet, we refuse to come to terms 
with a stark reality: the terrorists are creative and are working every 
day to find a new vulnerability to exploit. At a minimum, we have to be 
at least as creative as they are.
    Meanwhile, we have yet to see any innovative approach from DHS on 
chemical security. This latest development from the Department is 
concerning not just because it calls into question the future of New 
Jersey's chemical security, but because it signals the Department is on 
the wrong track. Instead of looking ahead to develop creative ways to 
secure our plants, the Department has put forward a proposal that 
threatens to undermine our own protections.
    We will not, and should not, be at the whim of an agency that has 
yet to prove it grasps the gravity and the urgency of securing our 
chemical plants. New Jersey needs the flexibility to enforce its own, 
tougher standards. I think I speak for all of us on this panel that we 
will not give up until we ensure that New Jersey's right is upheld and 
that our security will not be compromised. The stakes are simply too 
high.

 STATEMENT OF LAWRENCE STANTON, DEPARTMENT OF HOMELAND SECURITY

    Mr. Stanton.  Thank you, Senator. Thank you for the 
opportunity to be here today, sir. The Department does 
recognize the importance of the partnership with state and 
local authorities in ensuring chemical plant security. We 
believe that an open partnership, an open dialogue, among the 
partners, the state and local authorities, private sector, 
owner/operators operators, and the Federal Government is 
critical to providing for a secure chemical facility 
infrastructure for the nation. We believe that success in this 
area involves effective dialogue between all of the various 
levels of government, and we are dedicated to that principle.
    The DHS vision for security of the chemical infrastructure, 
sir, includes an infrastructure that is economically viable, is 
employing effective and appropriate risk analysis tools, has 
attained a sustainable security posture, and is addressing its 
vulnerabilities and consequences of attack.
    We have noted, sir, that the number of bills that have been 
presented since 9/11 addressing chemical security have all been 
centered around the concept of risk reduction to the chemical 
sector. The recent enactment by Congress of legislation in this 
area has provided DHS with the opportunity to regulate the 
chemical sector, and we will be announcing an Interim Final 
Regulation on April 4th of this year.
    The intent, sir, of the Department, when we released the 
Advance Notice of intent to regulate, the ANRM, was to solicit 
comments. And I think it is important to note at this hearing 
that, and especially here in New Jersey, that our intent with 
the ANRM was exactly as was purported, that our intent was to 
state a position, and to solicit comments on that position.
    We received hundreds of comments on the ANRM. As you can 
well imagine, sir, some of those comments were from members of 
the Congress and the Governor of this great State. All of those 
comments were read by us, considered very carefully, and have 
been weighed very carefully, and are reflective and have been 
reflected in the Interim Final Regulation. That's not to say 
that, in every case, every comment was accepted, or that there 
have been sweeping changes to the Interim Final Regulation from 
the ANRM, but there are substantial changes in the Interim 
Final Regulation from the Advance Notice.
    That Interim Final Regulation, which will be released in 
just 2 weeks, we believe, is the appropriate start to the 
Federal regulatory effort in securing the chemical sector. We 
would like very much to have the opportunity to implement that 
regulation and to show what that regulation does on the ground.
    DHS has a number of voluntary programs with the chemical 
sector, and I've elaborated on these in my written statement, 
sir. I would just note very quickly that our hallmarks, the 
Office of Infrastructure Protection's hallmark, has been an 
effective engagement. The protection planning process depends 
heavily on effective partnering between our Federal officials 
and the local and state officials that are responsible for 
response to and protection of plants in their communities.
    The Comprehensive Review Program we have launched 
throughout the Nation, specifically aimed at the chemical 
sector, relies entirely on effective partnership between local 
and State authorities, local and State responders, and the 
variety of Federal capabilities that can be brought to bear in 
both planning and response around the risk issues inherent in a 
chemical facility.
    We have in the Office of Infrastructure Protection a long 
track record of success in partnering effectively with our 
State and local colleagues, especially here in New Jersey, 
which, as has been pointed out by the previous panel, certainly 
has one of the most robust chemical infrastructures in the 
nation. We are keenly aware of that and we look forward to a 
continued effective partnership with our local and state 
partners in New Jersey.
    Thank you, sir.
    Senator Lautenberg.  Thank you very much.
    Ms. Bodine.

                                 ______
                                 
     Statement of Lawrence Stanton, Department of Homeland Security
    Thank you Chairman Lautenberg, Ranking Member Vitter, and Members 
of the Committee. It is a pleasure to appear before you today to 
discuss ``the Importance of State and Local Authorities in Ensuring 
Chemical Plant Security.'' Open dialogue between security partners is a 
key element in advancing the security of our nation, and I appreciate 
this opportunity to address you. Securing the Chemical Sector is a 
large job that will extend beyond the reaches of the Federal 
Government. It must be a national program that includes all levels of 
Government, industry and even the public. Integrated and effective 
partnerships among all partners, Federal, state, local, and private are 
essential to some of the most critical infrastructures in our country, 
chemical facilities.
    DHS' vision for the chemical sector is to have an economically 
competitive industry that has achieved a sustainable security posture, 
by effectively reducing vulnerabilities and consequences of attack to 
acceptable levels, using risk-based assessments, industry best 
practices, and a comprehensive information sharing environment between 
industry and Government.
    Before discussing some of the Departments work and achievements in 
the chemical sector, I pause to make a few notes concerning the 
legislation authorizing DHS to regulate facilities within the chemical 
sector. Since 9/11, there have been several congressional hearings and 
legislation introduced on chemical security, and then late last fall, 
the Department was pleased to have Congress enact legislation in this 
area. Even before we have an opportunity to implement this law, 
however, there are already threats of having the program delayed yet 
again.
    I am referring to a provision that is currently in the House 
Emergency Supplemental Appropriations bill. Among other problems, the 
provision imposes new requirements that would delay the implementation 
of this important regulatory program at a time when the Administration 
is scheduled to issue an interim final rule within weeks. The provision 
would also weaken the Department's ability to protect from disclosure 
information transmitted to the Department for regulatory purposes--
information that would, if in our enemies' hands, provide information 
about how to attack chemical facilities and foil existing defenses. 
Furthermore, the provision removes the restriction that the Department 
has the sole ability to enforce the provision, potentially resulting in 
lawsuits that might even further delay this important program. Finally, 
the provision would force DHS to reject any site security plan that 
does not meet State and local standards, which could put the Department 
in the position of imposing Federal fines on a facility that does not 
meet State and local regulatory standards. We urge Congress to remove 
the problematic provisions from the House Emergency Supplemental 
Appropriations bill.
    This hearing comes at an important moment for chemical security. 
This is not just because of the new federal regulations for chemical 
facility security which we will soon promulgate, but because voluntary 
cooperative efforts between the public and private sectors are 
beginning to bear fruit. Let me give you some examples of these 
voluntary efforts. One of the more important efforts we have been 
working on is the National Infrastructure Protection Plan (NIPP) which 
was issued in June 2006. The NIPP improves protection of Critical 
Infrastructure and Key Resources (CI/KR) by setting forth the risk 
management framework guiding national CI/KR protection activities 
across all sectors. Improving protection in the most cost effective 
manner requires cooperation between the owners and all levels of 
Government, and the NIPP clearly defines roles and responsibilities 
among all partners.
    Under the NIPP, each sector has developed a Sector-Specific Plan, 
or SSP, which details how the NIPP will be implemented in that specific 
sector. The Chemical SSP is a great example of the public/private 
partnership we are trying to foster working together to improve 
security at chemical facilities. It establishes goals, objectives, and 
metrics that address the full spectrum of protection activities 
including awareness, prevention, protection, response, and recovery. As 
with the other SSPs, the plan is in final clearance. We look forward to 
the chemical sector continuing to set a strong example in implementing 
cooperative strategies that cost effectively use Government and 
industry resources to ensure all of our CI/KR continue to operate 
economically and safely.
    The Chemical SSP describes many of the programs in which the 
chemical sector is voluntarily cooperating with DHS to protect and 
ensure the resiliency of its assets and manufacturing capabilities. In 
many cases, industry, through the Chemical Sector Coordinating Council 
(SCC), has actually partnered with DHS to develop these initiatives. 
Some examples of these voluntary efforts are:
    Site Assistance Visits (SAVs) are designed to facilitate 
vulnerability identification and discussion between the Federal 
Government and owners/operators of CI/KR in the field. 41 SAVs have 
been conducted in the chemical sector.The Comprehensive Review (CR) 
program, a non-regulatory exploration of potential threats in the 
terrorist environment, brings together a Federal interagency team, 
facility owner/operators, industry representatives, and community 
emergency services organizations. The first Chemical Sector CR was 
conducted in Detroit in February 2006. By August 2007, CRs will be 
conducted in five additional regions including Chicago, Houston, Los 
Angeles, Northern New Jersey, and Lower Delaware River. CRs have 
identified many improvements--many of them low- or no-cost--that can be 
implemented by CI/KR owners/operators, as well as longer term 
strategies and potential improvements that can be implemented with a 
mix of Government and private sector resources.
    The Buffer Zone Protection Program (BZPP) is a targeted grant 
program designed to assist local law enforcement in enhancing CI/KR 
protection across the country. In FY 2006, grant funding was increased 
from $50,000 per site to $189,000 per site for 185 sites in all 
sectors. For FY 2004/2005 248 BZPP reports for chemical facilities were 
submitted to DHS, which are eligible for a total of $12,600,000. For FY 
2006, three chemical reports have been submitted out of a total of 46 
eligible chemical facilities which are eligible for a total of 
$10,316,000. For FY 2007 a total of 100 chemical sites are eligible for 
BZPP funding of $19,865,000. To date, 394 chemical facilities have been 
eligible for a total of $42,781,000 under the BZP Program. Additionally 
in FY 06, there was a $25 million dollar Chemical BZPP to enhance state 
and local jurisdiction's ability to protect and secure identified 
Chemical Sector CI/KR regions. The Chemical BZPP program is a sector-
specific effort designed to be a companion to the Chemical Sector CR 
initiative.
    The Homeland Security Threat and Risk Analysis Center (HITRAC) is 
working hard to ensure the timeliness and content of the threat 
information provided to this sector. HITRAC works to provide valuable 
threat information themselves or via other invited members of the 
Intelligence Community through written products and periodic classified 
threat briefings to cleared industry representatives in the chemical 
sector. In addition, HITRAC provides scheduled unclassified 
teleconference briefings on threat information based on private-sector 
reporting, as well as law enforcement and other sources.
    The Homeland Security Information Network (HSIN) is providing an 
increasing amount of timely information to users in a secure online 
format. Recent information that we have posted on HSIN includes 
information on the January 17th train derailment and fire involving 
chemicals in Kentucky, reports on recent incidents in Iraq involving 
chlorine, and Quarterly Suspicious Activity Analyses which provide 
information on incidents and threats of concern to the private sector. 
These Quarterly reports are based primarily on private-sector reports, 
and represent the value of public-private cooperation.
    As I mentioned earlier, the Fiscal Year 2007 Homeland Security 
Appropriations Act directed DHS to develop and implement a regulatory 
framework for high risk chemical facilities. Section 550 of the Act 
gave DHS authority to require high-risk chemical facilities to complete 
vulnerability assessments, develop site security plans, and implement 
protective measures necessary to meet DHS-defined performance 
standards. The Act gives us six months from the date the President 
signed the Bill, or until April 4, 2007, to promulgate interim final 
regulations implementing this authority.
    In December 2006, DHS released an Advanced Notice of Rulemaking 
(ANRM) on the Chemical Facility Anti-terrorism Standards, containing 
draft regulations and seeking public comment on those regulations and 
some of the central issues surrounding them. Comments were due to DHS 
by February 7, 2007.
    Through the comment period, DHS received over 1300 pages of 
comments from over 106 separate submitters, which I am sure includes 
some of you. DHS is reviewing and considering these comments as the 
text of the interim final regulation is refined and finalized. A 
cursory review of these comments shows preemption, information 
protection, adjudications, and inherently safer technology as issues 
upon which numerous comments have been provided. We really appreciated 
all of the input and perspectives offered by Members of Congress, State 
and local jurisdictions, and industry. As the interim final rule is 
still being drafted, I can speak to some of the main principal and 
aspects of the program that we outlined in the Notice.
    First, let me stress that this will be a security focused 
regulatory regime that takes into consideration other existing 
authorities, such as the Environmental Protection Agency's Risk 
Management Program, the Department of Transportation's Hazardous 
Materials Lists, the Chemical Weapons Convention, and others. Looking 
at these other authorities, DHS has identified five security issues to 
be addressed as part of its program. Those are:
    Release--quantities of toxic, flammable or explosive chemicals or 
materials the DHS believes have the potential for significant adverse 
consequences for human life or health if released from a facility.
    Theft or Diversion--chemicals or materials DHS believes have the 
potential, if stolen or diverted during shipment, to be used as weapons 
or easily converted into weapons using simple chemistry, equipment or 
techniques in order to create significant adverse consequences for 
human life or health.
    Sabotage or Contamination--chemicals or materials which produce 
large amounts of toxic by inhalation gas when spilled in water and that 
DHS believes, if sabotaged or contaminated, have the potential to 
create significant adverse consequences for human life or health during 
transit or at a appoint of destination.
    Government Mission Criticality--chemicals materials, or facilities, 
the loss of which DHS believes could create significant adverse 
consequences for national security or the ability of the Government to 
deliver essential services.
    Economic Criticality--chemicals, materials or facilities the loss 
of which DHS believes could create significant adverse consequences for 
the national or a regional economy.
    To implement the regulations, DHS must define the regulated 
community, or determine which facilities are ``high risk''. To 
facilitate this, DHS has developed a screening tool called the Chemical 
Security Assessment Tool (CSAT). The CSAT employs an easy-to-use, 
online consequence-based Top Screen tool. CSAT builds upon the 
foundational assessment tool developed with industry referred to as the 
Risk Analysis and Management for Critical Asset Protection, or RAMCAP. 
Under the DHS proposal, those facilities that are initially designated 
high-risk must complete the online CSAT Security Vulnerability 
Assessment (SVA) which will factor into a final determination of a 
facility's risk level for purposes of the regulatory regime.
    Using the results of the CSAT tools, all high risk facilities will 
be placed into risk-based tiers. While all high-risk facilities will be 
required to develop site security plans addressing their 
vulnerabilities, the security measures needed to meet the performance 
standards, as well as its inspection cycle and other regulatory 
requirements will be based upon each facility's tier level. The 
performance standards are intended to address the facility's 
relationships with local jurisdictions, the ability to delay an 
adversary until a response by local authorities, response capabilities 
in the community, and emergency planning with local authorities. Thus, 
the performance standards take into consideration, and are intended to 
validate, the essential role that local authorities play in facility 
and community security.
    The higher a facility's risk tier, the more robust the security 
measures they will need to incorporate, and the more frequent and 
rigorous their inspections will be. Inspections will both validate the 
adequacy of a facility's site security plan, as well as verify the 
implementation of the measures identified therein.
    Training of the inspectors is taking place this month in 
Louisville, Kentucky. A large component of this training is being 
conducted on site at chemical facilities that have volunteered to 
participate. DHS is also finalizing the IT tools, guidance documents, 
procedure manuals, and other materials necessary to be ready for the 
launch of the regulatory program on April 4, 2007. Presently, the CSAT 
Top Screen has been developed and is going through final preparation.. 
DHS will be using a phased approach in implementing the regulations, 
with implementation at the highest risk facilities beginning in an 
expedited manner, and implementation at lower-risk facilities occurring 
in a sequential fashion.
    For our initial operating capability carrying through the end of 
this calendar year, we have identified a number of facilities that we 
believe will land clearly in the highest risk tier. Once the Interim 
Final Rule is published, we intend to begin working with those 
facilities in a partnership to perform the initial screening and 
vulnerability assessment, provide assistance in the drafting of the 
Site Security Plan, and conduct an initial inspection. We intend this 
to be a learning experience for us, our Inspectors in particular, and 
for industry, and what we learn will shape further implementation of 
the program, and help us ensure consistency in our approach across the 
Nation.
    Finally, let me just note that Chemical regulatory authority is an 
issue that has been worked on for a long time, and was the subject of 
several hearings and bills introduced by the 109th Congress. The 
Department had reached the conclusion that the existing patchwork of 
authorities did not permit us to regulate the industry effectively and 
ensure the security of these facilities. Finally, late last fall, the 
Fiscal Year 2007 Homeland Security Appropriations Act gave the 
Department the authority to regulate the security of high risk chemical 
plants nationwide. As we have said all along, and have incorporated 
into the proposed interim final rule, the following core principles 
must guide and regulatory approach:
    First, we recognize that not all facilities present the same level 
of risk, and that the most scrutiny should be focused on those that, if 
attacked, could endanger the greatest number of lives, have the 
greatest economic impact or present other very significant risks. There 
are certainly many chemical facilities in the country that pose 
relatively low risk.
    Second, facility security should be based on reasonable, clear, and 
equitable performance standards. The Department is developing 
enforceable performance standards based on the types and severity of 
potential risks posed by terrorists and natural disasters, and 
facilities should have the flexibility to select among appropriate 
site-specific security measures that will effectively address those 
risks.
    Third, we recognize the progress many responsible companies have 
made to date. Many companies have made significant capital investments 
in security since 9/11 and we should build on that progress. We will do 
that through implementation of the regulations, and by continuing all 
of the voluntary efforts.
    Thank you for your attention and I would be happy to answer any 
questions you may have at this time.

   STATEMENT OF SUSAN BODINE, ASSISTANT ADMINISTRATOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Bodine.  Thank you, Chairman Lautenberg. I'm pleased to 
be here to discuss EPA's authority to promote the safety of our 
nation's chemical facilities.
    The Office of Solid Waste and Emergency Response manages 
EPA's response to environmental emergencies. EPA's national 
planning and preparedness functions, and development and 
implementation of Federal regulations to prevent hazardous 
chemical accidents and oil spills.
    In carrying out our emergency response functions, we work 
closely with EPA's ten regional offices, our Federal agency 
partners, and state and local authorities to respond to major 
environmental emergencies and to conduct emergency removal 
actions at oil spill and hazardous waste sites.
    Of the regulations administered by my office, two in 
particular form the basis of our Chemical Accident Prevention 
and Prepared Program. Specifically, these are regulations for 
hazardous chemical inventory reporting under the Emergency 
Planning and Community Right-To-Know Act (EPCRA), and 
regulations for accident prevention and mitigation under 
Section 112(r) of the Clean Air Act.
    Now, EPCRA was enacted in 1986 as part of the Superfund 
amendments in response to the Bhopal, India chemical disaster 
of December 1984. And under EPCRA, states are directed to form 
State Emergency Response Commissions and local communities are 
to form Local Emergency Planning Committees.
    Now, the primary function of the Local Emergency Planning 
Committee is to prepare community emergency response plans for 
chemical accidents. EPCRA also requires chemical facilities to 
provide the Local Emergency Planning Committees with 
information necessary for emergency planning, and chemical 
facilities also submit annual chemical inventory reports and 
information about the facility's hazardous chemicals. They 
submit those both to the state commissions, local committees, 
and to the local fire departments.
    In 1990, as part of the 1990 amendments to the Clean Air 
Act, Congress added Section 112(r). In response to chemical 
accidents that occurred in the late 1980s. Section 112(r) of 
the Clean Air Act establishes general duties on all stationary 
facilities that handle extremely hazardous chemicals to prevent 
and mitigate accidental releases of those chemicals into the 
air. It also directs EPA to promulgate risk management 
requirements for facilities that have large quantities of the 
most dangerous chemicals, facilities that store quantities 
above a threshold. They have to conduct a hazardous assessment 
and, develop and implement an accident prevention and emergency 
response program. These facilities, also have to analyze the 
potential consequences of both a worst-case scenario release, 
as well as an alternative release scenario. And, again, they 
need to write a summary report. And all of that goes into a 
Risk Management Plan, which we call a RMP. There are 
approximately 14,000 facilities in the states that are subject 
to these RMP requirements.
    In addition to providing the address and physical location 
of a facility, these RMPs, the Risk Management Plans, report 
the identity and quantity of the regulated chemicals on site 
and information about measures taken by the facility to prevent 
accidental releases, facility emergency planning information, 
the history of significant accidents at the facility over the 
last 5 years, as well as the facility's Offsite Consequence 
Analysis information.
    Neither EPCRA nor the Clean Air Act contain any chemical 
plant security requirements, but they do contribute to facility 
safety and emergency preparedness by reducing the vulnerability 
of the facilities and communities to releases from whatever 
source and, therefore, to the consequence of those releases.
    I do want to mention that in 1999 Congress did change some 
of the Section 112(r) Risk Management Plan requirements in the 
Chemical Safety Information Site Security and Fuels Regulatory 
Relief Act. That change was to ask EPA to conduct a study of 
the Offsite Consequence Analysis information, and determine 
whether public release could increase terrorist risks.
    In 2000, EPA promulgated a change to the Offsite 
Consequence Analysis information as a result of its finding 
that making that information public did propose an increased 
risk.
    In addition, in 2004, EPA amended its regulations again for 
the Risk Management Program to remove the requirement that 
there be any information on Offsite Consequence Analysis in the 
summaries of the RMPs, which are publicly available.
    Now, after the creation of the Department of Homeland 
Security in 2002, the Homeland Security Presidential Directive 
7 established DHS as the lead agency for coordinating the 
overall national effort to enhance the protection of critical 
infrastructure and key resources of the United States, 
including the chemical sector. EPA supports DHS by providing 
information and support and we work together with them when we 
provide them assistance as requested.
    Senator Lautenberg.  Thank you.
    Ms. Bodine, I didn't see any reference to IST. You're 
familiar with what the acronym means?
    Ms. IBodine.  Yes.
    Senator Lautenberg.  As I take it, your contribution to 
preventing, and I look at your testimony here, establishing the 
Chemical Accident Prevention Program, but you don't include IST 
in your commentary.
    Is that not a factor in your evaluation?
    Ms. IBodine.  What the chemical facilities are required to 
do is a safety review. They are required to identify hazards, 
look at their process controls, look at their mitigation 
systems, look at their monitoring and detection systems, look 
at training, compliance, and incident investigations.
    And as part of the process, hazard analysis, the facilities 
need to look at what would happen if there was a failure in the 
process, what would happen if there was a leak.
    Senator Lautenberg.  So you're talking about what might 
happen in supplying information. You're not taking an active 
role in prescribing ways to prevent these things. What you're 
doing is providing information. I take it you're a data 
resource for DHS.
    Ms. IBodine.  Well, no, the EPA's programs are, again, to 
deal with chemical safety and to require facilities to have 
both evaluation of the Offsite Consequence Analysis, which----
    Senator Lautenberg.  Consequence management. You mean a 
medical or therapeutic arrangement. We'd like to start earlier, 
as you can imagine.
    Ms. IBodine.  Right. That's what the Risk Management 
Program looks at, both at the analysis of what the risks are 
associated with the facility and the processes up front. And if 
an accident does occur, then you need to have, of course, in 
place the planning and procedures to respond.
    Senator Lautenberg.  So you don't look at IST as a means of 
helping to reduce the risk of a major accident happening.
    Ms. IBodine.  Our program doesn't have a requirement.
    Senator Lautenberg.  Thank you.
    I find it, I must tell you, shocking, to believe that EPA, 
with its responsibilities for making sure that the air is 
clean, the water is clean, the Superfund sites are cleaned up, 
doesn't think that, in their development of information for DHS 
to act upon, which is, as I take it, its principal role here, 
that it would not be suggested by your department that they 
look at alternative ways to do what they have to with easier 
materials than those that are used now. Easier, in the fact 
that they might not have the same disastrous consequence.
    Ms. IBodine.  But it's not always clear what is Inherently 
Safer. There are always going to be risk trade-offs when 
looking at different materials. You have to remember, we 
started using MTBE in our gasoline in 1979 for octane purposes.
    And then later in 1992 we started using it to meet the 1990 
Clean Air Act amendments for oxygenated fuels. There could be 
unintended consequences.
    Senator Lautenberg.  The question is whether or not EPA has 
the responsibility to be more aggressive in terms of making 
recommendations that will help prevent the accidents. We look 
at EPA as an agency that would help prevent health dangers to 
children, to people in communities, that by having cleaner air, 
et cetera. That's what EPA's job is.
    Yeah, they have a secondary phase, they do clean up 
afterwards. We don't want to clean up afterwards, Ms. Bodine. 
We would like to get on with this and make sure that the 
protections that we propose have a direct effect on the 
exposure to danger.
    Thank you.
    Mr. Stanton, is it the view of DHS that preempting the 
rights of states or local governments to adopt strong chemical 
security protection increases our homeland security?
    Mr. Stanton.  That's not my understanding of DHS's 
position, no, sir.
    Senator Lautenberg.  So then what is the value of 
preemption here? I don't quite understand. If you don't think 
that preempting would endanger people more, rather, States 
rights would protect people more rigidly, what
    is the purpose of preemption as you see it?
    Mr. Stanton.  The purpose of preemption, sir, would be to 
enable DHS to address a situation where a state law or, 
perhaps, a local law or ordinance was interfering with DHS's 
ability to reduce risk, improve security, reduce 
consequentiality of or vulnerability of a chemical plant.
    Senator Lautenberg.  Now, you have to forgive me, I don't 
get it, because what you're saying is that stronger laws would 
prevent DHS from being more effective in terms of preventing a 
catastrophe.
    Mr. Stanton.  I'm sorry, sir, I didn't understand the 
question.
    Senator Lautenberg.  The suggestion is that it would 
inhibit your ability to help prevent accidents resulting from 
chemical exposure of an attack.
    Mr. Stanton.  No, sir.
    Senator Lautenberg.  Well, would preemption protect our 
citizens more strongly.
    Mr. Stanton.  I'm not sure if you're asking the question in 
general, sir, or in the context of the New Jersey chemical 
regulation.
    Senator Lautenberg.  Well, it applies to all states, Mr. 
Stanton.
    Mr. Stanton.  Yes, sir. I understand that the Department's 
position------
    Senator Lautenberg.  Let me be clear.
    Would you say that preempting States' programs to prevent 
chemical accidents from occurring in any way would improve the 
safety of the people who reside there?
    Does the preemption, being an earlier intervention, would 
help people be more safe as a result of that, of taking down 
themore rigid requirements that a state has?
    Mr. Stanton.  Sir, it is not my understanding that DHS 
intends to preempt State laws that do not frustrate our goal of 
reducing risk to the communities, to the nation, to the 
infrastructure itself.
    Our intent is to make a case for preemption, as is our 
place to do, in a situation where a state law is frustrating or 
interfering with our ability to accomplish risk reduction and 
improve security, reduction of consequentiality, reduction of 
vulnerability.
    Senator Lautenberg.  So the State exercising its right to 
protect its citizens to the best of its ability, that might be 
more requiring than DHS's, might frustrate DHS's ability to 
conduct their programs on a weaker standard?
    Mr. Stanton.  No, sir. Sir, that's not our proposition at 
all.
    Senator Lautenberg.  Well, what does preemption do? I'm not 
getting it. I don't know when the people, who either see this 
or hear it, will understand why it's better to have, not to 
frustrate, your words, frustrate DHS from carrying on its 
mission, when it's mission is less.
    Would they use a shorter ladder fighting a fire, I mean, in 
making people feel safer? It doesn't make sense, Mr. Stanton. 
And I don't mean to be picking on you, but I would tell you 
that there is nothing that I've heard from your statement, nor 
that I've seen from DHS, that suggests they are more concerned 
about taking care of the people who are exposed to these 
facilities by permitting states, who have tougher standards, to 
exercise those tougher standards.
    Mr. Stanton.  And I don't think that the language that we 
are intending to post on April 4th will necessarily----
    Senator Lautenberg.  Well, can I say that DHS would salute 
more rigid standards in the states, and let them do whatever 
they can that is more requiring than DHS to protect their 
residents?
    Mr. Stanton.  I think, sir, that the role of the Federal 
Government is to address national risk, to bring a national 
perspective to the table. When we look at the risks of a 
chemical facility, I think that what is risk reduction to one 
level of government may not always be risk reduction to every 
level of government.
    And so I think that it is entirely possible that, on a 
case-by-case basis, there will be differences of opinion 
between the Federal Government and the state, not only in New 
Jersey, but in other places, as well. And I think the intent of 
DHS----
    Senator Lautenberg.  This isn't a court of law, but I think 
that the case that you're making on behalf of DHS doesn't 
really do the job, Mr. Stanton. And convey it to Mr. Chertoff, 
to the Secretary of the Department of Homeland Security, that 
Senator Lautenberg does not understand why preemptions of rigid 
state law would be a better way to protect people with a lesser 
standard; that chlorine trucks have been recently used, Mr. 
Stanton, as bombs to kill people in Iraq.
    Does DHS view a terrorist attack on a chemical facility in 
the United States as a potential threat to the American public.
    Mr. Stanton.  Certainly, sir.
    Senator Lautenberg.  If so, why is the Administration 
proposing to preempt States from protecting their residents?
    Mr. Stanton.  I'm not sure that we are, sir. We're 
releasing an Interim Final Regulation in two weeks. The Interim 
Final Regulation will state DHS's position post-incorporation 
of comments. As I said in my opening statement, the Advance 
Notice that was released was exactly what it purported to be, 
it was a solicitation of comments on the subject. We received 
many comments on the subject of preemption, and those comments 
have figured heavily into our thinking of the language of the 
Final Regulation.
    Senator Lautenberg.  The situation that we have here with 
chlorine now being used as a weapon, as I noted, in Iraq, and 
it conforms to a statement made by Mr. Richard Falkenrath, the 
Homeland Security Policy Advisor, to President Bush from 2001 
to 2003. He said something, ``When you look at all of the 
different targets that could be attacked in the United States 
and ask yourself which presents the greatest possibility of 
mass casualties and are the least well secured at the present 
time, one target flies off the page, and it's chemicals, in 
particular toxic inhalation hazardous chemicals, not 
necessarily explosive chemicals, which, if inhaled, might be 
damaging to human health.''
    And if we can find Inherently Safer Technologies to deal 
with these things, I don't understand why we can't go ahead and 
do that without having the Department of Homeland Security 
saying, no, you're going to frustrate our means to work with 
these problems.
    As you can tell, it's really hard to imagine how 
circumventing our more rigid structure is going to give our 
people any protection, any comfort.
    The 2007 DHS Appropriations bill gave your Agency the task 
of writing Federal Rules on chemical security and was silent on 
the issue of preemption. What kinds of security analysis did 
DHS use in its decision to preempt the states?
    Mr. Stanton.  Sir, no decision has been made to preempt 
states.
    Senator Lautenberg.  No, you keep saying that, Mr. Stanton. 
Is there any objection to us reinserting in the law that was 
passed in the House, the Bill that was passed in the House of 
Representatives, why suddenly was there an effort to take out 
that right, the right of the states to write their own rules, 
that would send over to the Senate a Bill that strikes out the 
inability of DHS to preempt States' rights.
    Mr. Stanton.  This is in reference to the amendments to the 
Iraq Funding bill, sir.
    Senator Lautenberg.  Right.
    Mr. Stanton.  The Department is concerned that those 
amendments will significantly delay the implementation of a 
security regulation, sir. We've been requesting authority to 
regulate the chemical industry for several years. The 
authorization to do so was finally granted on September 29th of 
last year. We were given six months to write a rule. We put out 
a request for comment on December 28th. We received those 
comments. We read those comments. We studied those comments. 
We've redrafted the Interim Final Rule in recognition of those 
comments.
    Senator Lautenberg.  Is there a proposal to preempt states 
from using their own standards?
    Mr. Stanton.  Sir, the Interim Final Rule is going to be 
released in two weeks. It will lay out very specifically what 
DHS's understanding of its preemption authorities prerogatives 
are.
    Senator Lautenberg.  Okay.
    Mr. Stanton.  Under existing Federal law.
    Senator Lautenberg.  I hear you. I'll close with this: In 
2006, Government Accountability Office issued a report 
encouraging DHS to work more closely with EPA and consider 
Inherently Safer Technologies as part of the chemical security 
policy. DHS rejected that suggestion because of concern over 
how DHS's interaction with EPA might be perceived among DHS's 
private sector partners. Now, that's a quote, how DHS's 
interaction with EPA might be perceived among DHS's private 
sector partners.
    Should DHS's relationship with the chemical industry be a 
factor in its decisions about Homeland Security Regulations?
    Mr. Stanton.  I'm sorry, sir, could you repeat the 
question.
    Senator Lautenberg.  I asked, should DHS's relationship 
with the chemical industry be a significant factor in its 
decisions about how they write Homeland Security regulations?
    Mr. Stanton.  DHS believes that, in order to effectively 
regulate, in order to effectively reduce risk, in order to 
effectively reduce vulnerabilities and consequences in the 
chemical sector, the most beneficial way to do that is in 
partnership with our local and state partners in Government, 
with our partners in the public sector, and with our partners 
in the private sector, its infrastructures, owners and 
operators. We think that a positive relationship with all of 
those stakeholders helps us to achieve our end more quickly, 
more efficiently, and more effectively.
    Senator Lautenberg.  Do the private partners, to your use 
your expression, do they recommend a preemption for the 
Department of Homeland Security?
    Mr. Stanton.  You're referring to the private sector.
    Senator Lautenberg.  No.
    Mr. Stanton.  The owners and operators, sir?
    Senator Lautenberg.  Yes.
    Mr. Stanton.  It is my understanding that preemption is a 
preferred outcome. However, the concept of preemption in the 
private sector would appear to be very broad, and it's my 
understanding that that is not the Department's interpretation 
of our preemption capabilities.
    Senator Lautenberg.  I thank you very much. We're going to 
keep this record open. We'll submit questions in writing to 
give prompt attention in responding to us. Thank you very much, 
all of you, for appearing here.
    I'm pleased to note the presence of our distinguished 
Governor, former Senator, someone always concerned about the 
protection of the people in the state of New Jersey, working 
very hard during his time as the United States Senator, working 
on chemical security.
    And we will ask the indulgence of those who appear on the 
next panel; that would be Mayor Bollwage, Dr. Flynn and Rick 
Engler,to please indulge us while we hear from the Governor, 
whose schedule, as you can imagine, is one that demands his 
attention so immediately.
    So, Governor, thanks. Welcome here. We look forward to 
hearing your testimony.

                                 ______
                                 
Statement of Susan Bodine, Assistant Administrator, U.S. Environmental 
                           Protection Agency
    Good morning, Chairman Lautenberg, and Members of the Subcommittee, 
I am Susan Parker Bodine, Assistant Administrator of the Office of 
Solid Waste and Emergency Response (OSWER), U.S. Environmental 
Protection Agency (EPA). I am pleased to be here to discuss EPA's 
authorities for promoting the safety of our nation's chemical 
facilities.
                              introduction
    EPA's OSWER manages EPA's response to environmental emergencies, 
EPA's national planning and preparedness functions, and development and 
implementation of Federal regulations to prevent hazardous chemical 
accidents and oil spills.
    In carrying out our emergency response functions, we work closely 
with EPA's 10 regional offices, our Federal agency partners, and state 
and local authorities to respond to major environmental emergencies and 
to conduct emergency removal actions at oil spill and hazardous waste 
sites. In this capacity, we respond to several hundred major oil spills 
and hazardous chemical releases each year. The events EPA responds to 
cover a wide range of emergencies, from train derailments and fires at 
chemical plants to incidents of national significance such as the 
collapse of the World Trade Center and the Hurricane Katrina recovery 
effort. In all of our response activities, EPA maintains close working 
relationships with state and local authorities in order to carry out 
our responsibilities.
    In the area of national planning, EPA has partnered with the 
Department of Homeland Security and other Federal agencies in 
development and implementation of the National Response Plan, the 
National Incident Management System, and the National Infrastructure 
Protection Plan (NIPP). Together, these plans form a cohesive structure 
that integrates the incident management, protection activities, and 
emergency response capabilities and resources of Federal, State, and 
local governments into a national framework for domestic incident 
management.
    In addition to managing our field emergency response and national 
planning functions, OSWER is also responsible for the development and 
implementation of several important Federal regulations. These include 
regulations for hazardous chemical inventory reporting under the 
Emergency Planning and Community Right-to-Know Act (EPCRA), emergency 
release reporting requirements contained in the Comprehensive 
Environmental Response, Compensation and Liability Act (CERCLA), oil 
spill prevention and response planning requirements under the Clean 
Water Act and the Oil Pollution Act (OPA), and regulations for chemical 
accident prevention and mitigation under the Clean Air Act (CAA).
               epcra and the caa risk management program
    In response to the December 1984 toxic chemical disaster in Bhopal, 
India, and subsequent chemical accidents that occurred in the United 
States in the mid to late 1 980s, Congress passed both EPCRA and CAA 
section 112(r), establishing the chemical accident prevention program. 
EPCRA calls on states to create State Emergency Response Commissions 
(SERCs) and local communities to form Local Emergency Planning 
Committees (LEPCs) to prepare community emergency response plans for 
chemical accidents. EPCRA also requires chemical facilities to provide 
LEPCs with information necessary for emergency planning, and to submit 
annual chemical inventory reports and information about the facility's 
hazardous chemicals to SERCs, LEPCs and local fire departments.
    As its name suggests, EPCRA promotes the sharing of hazard 
information and emergency planning. However, EPCRA does not require 
facilities to take actions to prevent chemical accidents from 
occurring. After major chemical accidents continued to occur in the 
U.S. throughout the late 1980s, Congress added section 112(r) to the 
Clean Air Act (CAA) in 1990 which imposes a ``general duty'' on all 
stationary facilities handling extremely hazardous chemicals to prevent 
and mitigate accidental releases of those chemicals into the air. It 
also directs EPA to promulgate risk management requirements for those 
facilities having large quantities of the most dangerous chemicals.
    In accordance with Congress' direction in CAA 112 (r), EPA listed 
140 chemicals and their threshold quantities based on potential harm to 
human health and the environment in the event of an air release. 
Facilities having a listed chemical present in more than a threshold 
quantity must conduct a hazard assessment, develop and implement an 
accident prevention and emergency response program, analyze the 
potential consequences of worst-case and alternative (less severe) 
release scenarios, and provide a summary report--called a Risk 
Management Plan, or RMP--to EPA. Approximately 14,000 chemical 
facilities are currently subject to theserequirements.
    RMPs contain valuable information about a chemical facility and its 
hazards. In addition to providing the address and physical location of 
the facility, RMPs report the identity and quantity of each regulated 
chemical on site, information about the measures taken by the facility 
to prevent accidental releases, facility emergency planning 
information, the history of significant accidents at the facility over 
the last 5 years, and the facility's Offsite Consequence Analysis (OCA) 
information, which provides the facility's analytical estimate of the 
potential consequences of hypothetical worst-case and alternative 
release scenarios. EPA maintains a national electronic database of 
RMPs, known as RMP Info, which is currently the most comprehensive 
database of chemical facility hazard information in existence.
    While neither EPCRA nor CAA section 112 (r) contain any chemical 
plant security requirements, both contribute to facility safety and 
emergency preparedness and as a result help reduce the vulnerability of 
certain facilities and their communities to terrorist attacks. EPCRA's 
reporting requirements ensure that communities are made aware of 
hazardous chemicals located in their area, and SERCs and LEPCs 
established under the law help prepare communities to respond to any 
catastrophic releases of those chemicals. The CAA requirement for 
facilities to assess and address their potential chemical hazards 
reduces the risk that any unanticipated release will seriously threaten 
public health and the environment. The CAA requirement that facilities 
have emergency response plans in place also helps lessen the potential 
consequences of any unanticipated release, however caused. In addition, 
the national RMP database created under the CAA has proven to be one of 
the Federal government's most important sources of information on the 
risks associated with U.S. hazardous chemical facilities.
                         coordination with dhs
    After the creation of the Department of Homeland Security (DHS) in 
2002, Homeland Security Presidential Directive 7 established DHS as the 
lead agency for coordinating the overall national effort to enhance the 
protection of the critical infrastructure and key resources of the 
United States, including the chemical sector. While DHS is the lead 
Federal agency for chemical sector security, EPA serves in a supporting 
role by providing information and analytical support, and by 
maintaining involvement in the Department's ongoing chemical security 
initiatives as requested. For example, EPA participates in the 
Department's Chemical Comprehensive Review program, where DHS involves 
Federal, State, and local Government authorities, as well as private 
sector representatives, to evaluate the security vulnerabilities and 
emergency response capabilities of selected major metropolitan areas, 
and provides grants to assist states in obtaining resources necessary 
to address area security vulnerabilities.
    The 2007 Homeland Security Appropriations Act now provides DHS with 
explicit interim authority to publish security regulations for high-
risk chemical sites and conduct regulatory enforcement activities. This 
authority reinforces DHS as the Federal lead for chemical site security 
and significantly improves the Department's ability to carry out that 
role.
    As DHS continues its efforts to develop and implement the 
regulations and other programs related to chemical sector security, EPA 
stands ready to support them in those initiatives, as needed.
                               conclusion
    Thank you for the opportunity to testify. I would be pleased to 
answer any questions.

 STATEMENT OF HON. JON S. CORZINE, GOVERNOR FROM THE STATE OF 
                           NEW JERSEY

    Mr. Corzine.  Mr. Chairman, it's nice to use that language 
when I am addressing you.
    Senator Lautenberg.  I like it.
    Mr. Corzine.  Brings back old days. It's good to be back in 
front of then Senate Environment and Public Works Committee, 
which I was fortunate enough to serve on in my first 2 years 
when I was in the Congress.
    Senator Lautenberg.  Could everybody hear the Governor 
okay.
    Mr. Corzine.  And the good work that both that Committee 
and you, who preceded me there, have done with regard to 
chemical plant safety and security, the topic that is on the 
table today. And I'm very pleased to have a chance to testify 
to the view, that we should be able to, at a state and local 
level, to address the risks and vulnerabilities that we see, so 
that we can take on the responsibility that I think all of us 
in public life believe is our number one responsibility, which 
is to protect the citizens we serve.
    I have a formal statement for the record, which if you are 
having trouble sleeping, I urge you to read tonight, but I want 
to be passionate about the subject of chemical plant security.
    As you know in the State of New Jersey, we have had a 
number of instances before. We have had explosions, toxic 
chemical releases that have threatened our public. Most 
recently an explosion at the Napp Technologies facility in Lodi 
killed five workers in 1995. There are a number of other 
instances through time.
    None of us have to conjure up too long a memory to 
recognize the catastrophe that occurred around Valero, and you 
can go through a litany of these examples.
    By the way, last week alone, three people were injured in a 
small blaze in Colorado at a chemical plant. Workers were 
hospitalized in Florida from a chemical spill in an asphalt 
plant that caught fire in Pennsylvania. This is sort of the 
everyday elements of environment and public safety exposure 
that exist. And, as you noted, some of the experts that have 
reviewed the vulnerabilities that we have in the post-9/11 
world report efforts to use our infrastructure as weapons 
against the public.
    Nothing seems more central or close to the top of the list 
of those items than chemical plants. And we have taken very 
strong steps here in New Jersey, both from an environmental 
safety and public safety standpoint, but also with regard to 
security. There's a series of complex legislative and 
regulatory steps that we have taken that identify plants that 
are vulnerable, those that expose the public in large degree, 
and we have asked them to take specific steps, both on a 
security basis, but also to look at what is called Inherently 
Safer Technology in that process.
    And just last week we expanded the number of plants that 
would be required, not only for new activities at those plants, 
but for their broad elements, to examine Inherently Safer 
Technology. And we're trying to put it into regulatory format, 
not just in what is the equivalent of what is an Executive 
Order. We think these are strong steps, important steps, ones 
that have been engineered in conjunction with ongoing dialogue 
with the private sector, but recognizing the tremendous dangers 
that our public, in a dense, the most densly-populated State in 
the nation, would incur.
    We're proud of our chemical industry. We're not trying to 
run the chemical and petroleum industry out of the state. In 
fact, we want to be welcome to it, but it needs to be done in 
the context of public safety and security. This is an issue 
that I've worked on in Congress. It's an issue that I believe 
we need to be ever attentive to here in the State of New 
Jersey.
    The one thing that is very disturbing, from the discussion 
that I just heard of the previous panelists and in the initial 
proposal of rules that follow the September 29th regulations 
that were put forth in last year's Appropriations bill, is the 
fact there is the potential that much of the good work that we 
have put in place could be diminished, could be reduced.
    Almost everybody agrees, we ought to have vulnerability 
assessments and risk-based analysis of where a plant stands, 
but substituting ammonia or chloride hydrolyte for chlorine is 
not something that would be mandated under those kinds of 
contexts. Looking for substitutions, looking for reduction of 
the storage of chemicals on site, changes in process, those are 
not generally required around the country.
    We think they're important ingredients. And if we wrote 
chemical plant security regulations or law that I thought met 
those standards at the national level, we wouldn't need to take 
those steps at the state level, but that hasn't occurred. And 
we need to make sure that we're not preempted from doing those 
things that we think would protect the public.
    This is a big deal for our communities. You know I get 
different counts, someplace between 109 and 111 plants that 
would impact a million people or more if there were a release 
of toxic chemicals. Some of the most dangerous plants in the 
country identified by EPA are here in New Jersey. And it's not 
because we want to close these plants, it's because we want to 
protect the public on a best probability basis that we can, 
that we have worked so hard here.
    Federal preemption, the basis that one set of rules works 
everywhere, I think would be a big mistake. And the State of 
New Jersey will take those actions, aside from the kinds of 
testimony we give today, to try to protect our position to be 
able to protect the public of the State of New Jersey. So I 
think I'll stop there, Mr. Chairman.
    Senator Lautenberg.  Thank you very much, Governor. I have 
to tip my hat to you, because you haven't been waiting to see 
what could happen if there is less attention paid to these 
problems by expanding the number of sites that you think ought 
to be reviewed. And here again, I draw not only on your Senate 
experience, but your business experience, and that is, I 
understand, that you've got people from industry working with 
you, and that's as it should be.
    And we're not looking at incapacitating these companies. 
They provide valuable material for public use and they're 
important facilitators for better crops, for better protection 
against all kinds of things. And so we want to encourage them 
to do their business. And it's most surprising to me, having 
been in New Jersey all of my life, having come out of the 
corporate world, to see these companies stepping up and saying, 
okay, look, we don't want things to be tougher, but we do want 
them to be safer. And so it's an excellent relationship.
    You've got labor behind you, Governor, by way of the New 
Jersey AFL-CIO making their announcement to be of help. And so 
I think what you've done is the thing I know you best for, and 
that is your leadership quality, Governor. And the old Frank 
and Jon alliance is still alive and well. So thanks very much.
    Mr. Corzine.  Appreciate it. And I want to concur and 
underscore that this has been a collaborative effort, business, 
labor, and the public sector, which it should be. But that is 
not an excuse for our Federal partners to preempt what is the 
good work of a lot of people here, not just my Administration, 
but previous Administration.
    Senator Lautenberg.  If there is one lingering polity here 
is how DHS could make a case for not permitting states, that 
are willing to deal with it, having their industry deal with 
it, to go ahead and have a more requiring standard. But we 
heard that they don't, that it frustrates them. And the last 
thing we want to do is frustrate them. Thanks very much.
    Mr. Corzine.  Thanks, Senator.
    Senator Lautenberg.  We'll take a 5-minute break, please, 
and I'll call the next witness to the table, Mayor Bollwage, 
Council on Foreign Relations; Dr. Flynn, Council on Foreign 
Relations; Rick Engler of New Jersey Work Environmental 
Council.
    (Recess is taken at 11:45 a.m.)
    Senator Lautenberg.  Mayor Bollwage.

                                 ______
                                 
   Statement of Jon S. Corzine, Governor from the State of New Jersey
    Chairman Lautenberg--I like the way that sounds. . .  Chairman 
Lautenberg, Ranking Member Vitter, Senators Cardin, Klobuchar and 
Whitehouse, Senator Menendez, Congressman Pallone, Congressman Payne, 
fellow witnesses, I am pleased to appear before the Senate Environment 
and Public Works Subcommittee on Transportation Safety, Infrastructure 
Security and Water Quality. I am especially pleased to do so here in 
New Jersey and I welcome the Subcommittee to our Great State. I 
appreciate you accommodating my schedule today, so that I can be here 
to talk about an issue about which I care deeply--the importance of 
state and local authorities in ensuring chemical plant safety and 
security.
    I have long fought to ensure the public safety by addressing the 
security of our nation's chemical facilities. As you know, as Senator, 
I championed Federal legislation on this issue, and I am pleased that 
the once and again Senior Senator from New Jersey has continued that 
effort.
    We know how dangerous these places can be because of the terrible 
accidents that occur at them. In September 2001, an accident at a 
chemical plant in France caused 300 tons of nitrates to explode, 
killing 29, injuring thousands, and damaging 10,000 houses. And we have 
certainly had our share of these problems right here in New Jersey. In 
1995, an explosion at the Napp Technologies facility in Lodi resulted 
in the death of five workers. In addition, al-queda affiliated 
insurgent groups in Iraq have targeted chemical facilities to enhance 
the lethality of their attacks. Today, a plausible threat remains that 
a successful attack against chemical facilities has the potential to 
meet terrorist goals.
    As you know, last October Federal legislation addressing this 
important issue was signed into law as part of the Homeland Security 
Appropriations Act. However, that legislation did not go as far as I 
would have liked, and I am particularly concerned about DHS' claim of 
preemption authority in the proposed regulations despite no clear grant 
of authority from Congress. We have, and will continue to, forcefully 
oppose any claim of preemption which impacts New Jersey's ability to 
protect its citizens.
    Since becoming Governor, my Administration has been committed to 
ensuring that New Jersey's pioneering chemical security, public safety, 
and environmental protection laws are successfully implemented; and to 
identifying any gaps that the state must address.
    September 11th shocked us into the realization that our assets can 
be turned against us by terrorists. New Jersey's critical 
infrastructure concentration and high population density may have no 
comparison in the United States. Our robust chemical industry also 
presents us with unique advantages and challenges.
    According to EPA data, there are a number of plants here in New 
Jersey where a worst case release of toxic chemicals--accidental or 
otherwise--could threaten more than a million people. You'd better 
believe this is an issue we take seriously here.
    Since January 1986, New Jersey has had in place the Toxic 
Catastrophe Prevention Act (TCPA), an environmental statute that 
requires facilities that handle extraordinarily hazardous substances 
(EHS) above certain thresholds to prepare and implement risk management 
plans to prevent potentially catastrophic releases. And in 2003, the 
TCPA rules were updated to specifically require that owners and 
operators evaluate inherently safer technology (IST) for newly designed 
and constructed covered processes.
    Since 1990, New Jersey has also had the Discharge Prevention, 
Containment and Countermeasures (DPCC) program, which regulates 
facilities storing petroleum and/or hazardous substances to protect 
from accidental discharges to the environment.
    In September 2003, New Jersey adopted Best Practices for the 
Chemical Sector. These represent a risk-based approach to security 
consisting of a site-specific vulnerability assessment that evaluates 
threats to a facility's operation, its particular vulnerabilities and 
likely consequences of a chemical release, and the physical and 
procedural security measures already in place and those which should be 
taken to remediate vulnerabilities.
    And since November 2005, Best Practices Standards have been in 
place, clarifying that Best Security Practices are ``mandatory'' for 
TCPA/DPCC chemical sites. They:

     Require the development of ``prevention, preparedness, and 
response plans''
     Require facilities management to afford employees a ``reasonable 
opportunity'' to identify issues that should be addressed in the 
security assessment and plans, including emergency response plans;
     Require covered TCPA facilities to produce a review report 
regarding the adoption of ``Inherently Safer Technology (IST);''
     Define IST as: 1) reducing the amount of material that could be 
released; 2) substituting less hazardous materials; 3) using hazardous 
materials in the least dangerous process condition or form; 4) 
designing equipment and processes to minimize equipment or human error.

    Just this Friday, we announced proposed changes to our TCPA rules 
to more than double the number of facilities affected by IST 
requirements--all 94 TCPA facilities will now have to review the 
possibility of making materials substitution or equipment or process 
changes for the sake of public safety.
    To date, as a result of our TCPA requirements there are many New 
Jersey IST success stories:

     Over 20 wastewater treatment facilities have switched from using 
chlorine to sodium hypochlorite for disinfection of their treated 
wastewater.
     Four electric generation and cogeneration plants substituted 
anhydrous ammonia with aqueous ammonia for use in their air pollution 
control systems.
     One facility switched from chlorine to bromochlorohydantoin for 
use as an algicide in treating cooling water.
     One facility switched from bulk storage of liquid sulfur trioxide 
to on-site generation of gaseous sulfur trioxide for direct consumption 
into the process.
     One facility switched from bulk storage of chlorine to on-site 
generation of ozone for disinfection of potable water.
     Another facility is proposing to switch from bulk storage of 
chlorine to on-site generation of chlorine dioxide for bleaching paper.

    As we implement these policies and work with facilities on site-by-
site review of security vulnerabilities, we have seen positive 
compliance with the Best Practices Standards, which have now been in 
place over a year. Overall, 62 percent of the facilities demonstrated 
compliance with the Standards. Facilities were given 30 days to 
satisfactorily resolve any outstanding compliance issues. Our 
Department of Environmental Protection anticipates compliance with the 
all of the above requirements to exceed 98 percent.
    We are proud of the work that we have done in New Jersey. I want to 
recognize that most of this work has been done cooperatively with the 
chemical industries. To date, the chemical industry in New Jersey has 
invested hundreds of millions of dollars to improve safety and security 
at their plants. We appreciate these efforts and will continue to work 
cooperatively whenever we can.
    For example, New Jersey has invested in developing a worker-
training curriculum based on extensive collaboration between industry 
leaders, workers and their advocates, academia, and homeland security 
and safety experts. AFL-CIO, Rutgers University, the Steelworkers, the 
Teamsters, the chemical industry and others played a key role in 
developing and promoting our ``train the trainer'' program to ensure 
workers and managers at chemical plants are prepared to make their 
workplaces the safest places possible. We recently reached out to the 
chemical industry to ensure timely implementation and look forward to 
making progress with them on this issue.
    While New Jersey has taken major steps, this is far from a New 
Jersey-only issue. I have long argued that Federal standards are 
necessary to protect all of our citizens from the potential dangers of 
an attack on, or accident at, a chemical plant, and to ensure a level 
playing field for security throughout the nation This need must be 
balanced with the flexibility for states to take action beyond the 
Federal standards to address unique state circumstances.
    I have been very vocal about my opposition to Federal preemption of 
state chemical security laws. As Senator, I proposed legislation that 
was deferential to state's efforts to go beyond Federal standards to 
protect their citizens. And last month, I sent a letter to Secretary 
Chertoff expressing my opposition, and asked New Jersey's Director of 
Homeland Security and Preparedness Richard Canas and Department of 
Environmental Protection Commissioner Lisa Jackson to submit detailed 
formal comments to the Department of Homeland Security expressing these 
sentiments as part of the public comment period.
    Our citizens will be most secure when all levels of Government work 
closely together to ensure their safety. It would be a terrible mistake 
to undermine the great work that New Jersey has done, or the future 
flexibility to implement additional security measures. Thank you for 
your time today.

   STATEMENT OF J. CHRISTIAN BOLLWAGE, MAYOR, ELIZABETH, NEW 
                             JERSEY

    Mr. Bollwage.  As the fourth largest municipality in New 
Jersey and the Union County Seat, Elizabeth is centrally 
located to the entire tri-state area. In addition to its 
position within the region, located within the City of 
Elizabeth are Port Elizabeth/Newark, the CSX Facility, the 
North East Corridor, Goethals Bridge, Route 278, Routes 1&9 and 
the New Jersey Turnpike. In addition, the Chemical Coast Line, 
which transports chemicals by rail through the City of 
Elizabeth, poses potential high life hazards in the event of an 
emergency or potential terrorist attack. As a transportation 
hub and vital destination, Elizabeth's growing need for 
homeland and chemical security is evident.
    Furthermore, Elizabeth borders municipalities such as 
Linden, Newark and State of New York City, which due to the 
location and the presence of petrochemical plants, pose 
potential fire hazards, as well as potential terrorist targets.
    We continue to operate at an Elevated Alert Level, and High 
Threat Level for the Aviation Sector. Our efforts on September 
11th, while vital in New York City and surrounding 
municipalities, we required unprecedented manpower, in addition 
to equipment utilization disbursements. Commuters stranded on 
major roadways such as the Goethals Bridge, were provided 
shelters in our city. Police officers were assigned for 
security purposes. Our firefighters went to New York, as well 
as the surrounding Boroughs, to provide coverage at their local 
firehouses.
    We're expanding with the growth of the Jersey Gardens Mall, 
IKEA, Union County College, and Trinitas Hospital. In recent 
years, the AMC Theater, in addition to five hotels. 
Furthermore, the city anticipates incorporation of a ferry 
service departing from the Elizabeth Seaport to New York City.
    We've been identified within the most dangerous two miles 
in the country. Located in close proximity to the Infineum 
Corporation and Conocco Phillips Oil Refinery, the City of 
Elizabeth is at an even higher risk for potential terrorist 
activity. And with 15,000 chemical facilities throughout the 
nation, it's imperative that local chemical security procedures 
are enacted.
    In November 2005, New Jersey implemented state-based 
chemical security protection procedures. And those requirements 
indicated that the State's highest risk chemical facilities 
would have to conduct an analysis to determine whether 
Inherently Safer Technologies, safer chemical or materials, 
could be used to reduce the risk of a hazardous material 
emergency or terrorist attack. Due to its location in the 
region, the City of Elizabeth is beginning to apply safe 
planning policies to reduce the risk of an emergency. In order 
to efficiently continue implementing these strategies, state 
and local municipalities need to have the ability to apply a 
plan that will most effectively enable prevention and targeted 
response in the event of an emergency.
    In September, Congress gave the Department of Homeland 
Security the authority to adopt interim regulations for 
security at chemical facilities. However, that measure was 
silent on the issue of preemption. Within their proposed 
regulation, DHS asserted that based upon Congress' silence on 
this issue, it had the authority and would preempt state and 
local laws that went further than the Department's regulations. 
Under these regulations, the City of Elizabeth would be unable 
to create policies that could assist in reducing the risk of a 
catastrophic emergency.
    The EPA is responsible for handling environmental impacts 
of all 15,000 chemical facilities in the nation. Federal 
chemical security measures, such as the proposed DHS 
regulations, will not be sufficient to ensure the safety of 
local municipalities such as ours.
    Even before 9/11, the nation's chemical facilities were 
vulnerable to chemicals attacks involving hazardous materials.
    In 1980, Senator, as you know, an explosion and fire at 
Chemical Control, a chemical storage facility in Elizabeth, 
burned for 15 hours and literally rocked neighborhoods for 
miles. Approximately 14,000 residents within one mile of the 
site and one residence located within 200 feet. Not to mention 
the dozens of densely populated neighborhoods located across 
the Elizabeth River. Over 400 firefighters, policy and 
emergency workers labored in thick smoke; less than half had 
air packs. Runoff stained the Elizabeth River red; smoke 
shrouded Staten Island. Within 18 months, many firefighters 
reported respiratory trouble and others developed health 
problems ranging from cancer to chronic skin rashes.
    This tragic event spawned the birth of Hazardous Material 
Response Awareness. Since then Federal, State and local 
Governments have worked together to ensure the safety of our 
first responders. The interoperability among Government 
agencies continues to protect the men and women who without 
hesitation risk their lives to protect our residents. And now 
more than ever we must work together to develop guidelines that 
can be realistically applied to safeguard our residents.
    Twenty-seven years later, we should not be waiting for 
another chemical disaster to figure out what the best plan of 
action should be to protect the lives of our citizens. A 
blanket Federal security measure will not adequately safeguard 
all chemical facilities throughout the nation and the residents 
in surrounding neighborhoods. In the event of a hazardous 
chemical emergency or terrorist attack, the City of Elizabeth 
needs to act, and will not be able to wait for the Federal 
Government to implement immediate emergency assistance.
    It is imperative that State and local Government agencies 
be allowed, with the assistance of the Federal Government, to 
develop and implement strategies that will ultimately result in 
lowering the risk and consequences of a terrorist attack and 
make chemical facilities more secure.
    If you ask New Jersey officials how to better secure our 
chemical facilities, we can respond. If you ask the New Jersey 
officials how to better secure a chemical facility in Baton 
Rouge, LS we could not respond adequately. Each facility is 
unique and, therefore, needs specific security measures. Having 
one standard model of security, which would preempt state and 
local law, for the 15,000 facilities nationwide is a recipe for 
disaster.
    In order to protect the health, safety and well-being of 
the residents within the City of Elizabeth, it is imperative 
that state and local municipalities have the authority and 
resources to secure our hometowns.
    Regardless of the outcome, the City of Elizabeth is 
equipping, training and preparing our first responders to deal 
with any emergency situation. The only question now is whether 
Federal, State and local Governments can come together and 
collectively ensure the safety of our residents.
    Mr. Chairman, thank you for this opportunity.
    Senator Lautenberg.  Thanks very much, Mayor.
    Dr. Flynn, we welcome you here. And I note that your 
contact with Foreign Affairs is kind of an interesting platform 
for your interests from your position in the Council on Foreign 
Relations, and we invite you to give your testimony.

                                 ______
                                 
    Statement of J. Christian Bollwage, Mayor, Elizabeth, New Jersey
    As the fourth largest municipality in New Jersey and the Union 
County Seat, Elizabeth is centrally located to the entire tri-state 
area. In addition to its position within the region, located within the 
City of Elizabeth are Port Elizabeth/Newark, the CSX Facility, the 
North East Corridor, Goethals Bridge, Route 278, Routes 1&9 and the NJ 
Turnpike. In addition, the Chemical Coast Line, which transports 
chemicals by rail through the City of Elizabeth, poses potential high 
life hazards in the event of an emergency or potential terrorist 
attack. As a transportation hub and vital destination, Elizabeth's 
growing need for homeland and chemical security is evident.
    Furthermore, Elizabeth borders municipalities such as Linden, 
Newark, as well as NYC, which due to location and the presence of 
petrochemical plants, pose potential fire hazards and potential 
terrorist targets.
    In New Jersey, we continue to operate at an Elevated Alert Level, 
and a High Threat Level for the Aviation Sector. Elizabeth's efforts on 
September 11th, while vital in New York City and surrounding 
municipalities, required unprecedented manpower, in addition to 
equipment utilization and disbursement. Commuters stranded on major 
roadways such as the Goethals Bridge, were provided shelter at a local 
Recreation Center and other sites throughout the City. City police 
officers were also assigned for security purposes. Elizabeth's 
firefighters were sent to New York City, as well as the surrounding 
Boroughs, to provide coverage at the local firehouses.
    The City of Elizabeth is expanding, with economic development and 
growth taking the forefront. Home to Jersey Gardens Mall, IKEA, Union 
County College, and Trinitas Hospital, in recent years Elizabeth has 
welcomed the AMC Theater and numerous restaurants and shops. With the 
addition of five hotels, including extended-stay facilities, there is 
an immense increase in high-life hazard locations. Furthermore, the 
City of Elizabeth anticipates the incorporation of a ferry service 
departing from the Elizabeth Seaport, thus increasing the number of 
visitors and commuters traveling to and from Elizabeth on a daily 
basis.
    The City of Elizabeth has been identified within the most dangerous 
two miles in the country. Located in close proximity to the Infineum 
Corporation and the Conoco Phillips oil refinery, the City of Elizabeth 
is at an even higher risk for potential terrorist activity. With 15,000 
chemical facilities throughout the nation, it is imperative that local 
chemical security procedures be enacted.
    In November 2005, New Jersey implemented state-based chemical 
security protection procedures. These requirements indicated that the 
State's highest risk chemical facilities would have to conduct an 
analysis to determine whether Inherently Safer Technologies (IST), 
safer chemical or materials, can be used to reduce the risk of a 
hazardous material emergency or terrorist attack. Due to its location 
in the region, the City of Elizabeth is beginning to apply safe 
planning policies to reduce the risk of an emergency. In order to 
efficiently continue implementing these strategies, State and local 
municipalities need to have the ability to apply a plan that will most 
effectively enable prevention and targeted response in the event of an 
emergency.
    In September, Congress gave the Department of Homeland Security 
(DHS) the authority to adopt interim regulations for security at 
chemical facilities. However, that measure was silent on the issue of 
preemption. Within their proposed regulation, DHS asserted that based 
upon Congress's silence on the issue, it had the authority and would 
preempt State and local laws that went further than the department's 
regulations. Under these regulations, the City of Elizabeth would be 
unable to create policies that can assist in reducing the risk of a 
catastrophic emergency.
    The Environmental Protection Agency (EPA) is responsible for 
handling environmental impacts of all 15,000 chemical facilities in the 
nation. Federal chemical security measures, such as the proposed DHS 
regulations, will not be sufficient to ensure the safety of local 
municipalities such as the City of Elizabeth.
    Even before 9-11, the nation's chemical facilities were vulnerable 
to terrorist attacks and incidents involving hazardous materials.
    In 1980, an explosion and fire at Chemical Control, a chemical 
storage facility in Elizabeth, burned for 15 hours and literally rocked 
neighborhoods for miles. There were approximately 14,250 residents 
within 1 mile of the site and one residence located within 200 feet. 
Not to mention the dozens of densely populated neighborhoods located 
across the Elizabeth River. Over 400 firefighters, police and emergency 
workers labored in thick smoke; less than half had air packs. Runoff 
stained the Elizabeth River red; smoke shrouded Staten Island. Within 
18 months, many firefighters had reported respiratory trouble. Others 
developed health problems ranging from cancer to chronic skin rashes.
    This tragic event spawned the birth of Hazardous Material Response 
and Awareness. Since then Federal, State, and local Governments have 
worked together to ensure the safety of our first responders. The 
interoperability among Government agencies continues to protect the men 
and women who without hesitation risk their lives to protect our 
residents.
    Now more than ever, we must work together to develop guidelines 
that can be realistically applied to safeguard our residents.
    Twenty-seven years later, we should not be waiting for another 
chemical disaster to figure out what the best plan of action should be 
to protect the lives of our residents. A blanket Federal security 
measure will not adequately safeguard all chemicals facilities 
throughout the nation and the residents in surrounding neighborhoods. 
In the event of a hazardous chemical emergency or terrorist attack, the 
City of Elizabeth needs to act, and will not be able to wait for the 
Federal Government to implement immediate emergency assistance.
    It is imperative that State and local Government agencies be 
allowed, with the assistance of the Federal Government, to develop and 
implement strategies that will ultimately result in lowering the risk 
and consequences of a terrorist attack and make chemical facilities 
more secure.
    If you ask New Jersey officials how to better secure our chemical 
facilities we can respond. If you ask New Jersey officials how to 
better secure the chemical facility in Baton Rouge, LA we could not 
respond adequately. Each facility is unique and therefore needs 
specific security measures. Having one standard model of security, 
which would preempt State and local law, for the 15,000 facilities 
nationwide is a recipe for disaster.
    In order to protect the health, safety, and well being of the 
residents within the City of Elizabeth, it is imperative that State and 
local municipalities have the authority and resources to secure our 
hometowns.
    Regardless of the outcome, the City of Elizabeth is equipping, 
training, and preparing our first responders to deal with any emergency 
situation. The only question now is whether Federal, State, and local 
Government can come together and collectively ensure the safety of all 
our residents.

           STATEMENT OF STEPHEN E. FLYNN, COUNCIL ON 
             FOREIGN RELATIONS, NEW YORK, NEW YORK

    Mr. Flynn.  Thank you very much, Senator. It's an honor to 
appear before you today. And I'm also a retired Coast Guard 
officer and spent 24 years in that service and have been 
working in Homeland Security for a bit of time, and had the 
good fortune to appear and honor to appear before you on a 
number of these Committee Hearings before.
    I wanted to appear before you today to address the vital 
issue of chemical facility security. At the outset, Mr. 
Chairman, I want to thank you for the exceptional leadership 
you have been providing in both raising the profile and 
advancing practical approaches to this complex challenge. You 
have been hard at work I know long before the attacks of 
September 11th.
    Recognizing that communities may be jeopardized by 
accidents, such as the tragic one that took place in the 
pesticide plant in Bhopal, India, in December 1983, you have 
played an instrumental role in advancing prudent safety 
measures such as the Emergency Response and Community Right-to-
Know Act, to reduce the potential peril chemical facilities can 
pose to citizens who neighbor them.
    As I had previously testified before the Senate Homeland 
Security and Governmental Affairs Committee, what you said, 
almost two years ago, April 27, 2005, there are hundreds of 
chemical facilities within the United States that represent the 
military equivalent of a poorly-guarded arsenal of weapons of 
mass destruction.
    At that panel, in fact, I said to the panels of Senators 
that are were there, I said, ``Imagine you are receiving a 
briefing from the Director, from the presidential morning daily 
brief, Mr. President, we just made ourselves aware there are 
weapons of mass destruction positioned around the United States 
next to some of the most densly-populated areas, next to some 
of the most critical infrastructures. We rely on things like 
seaports and airports and refineries and, Mr. President, we 
have no idea what the stance of these weapons are, and we would 
like the authority to go in and check out the plants.''
    You would think, as a Nation that has expanded so much 
blood and treasure looking for weapons of mass destruction 
overseas, that their Commander and Chief that received that 
briefing would be poised for action. That was almost 2 years 
ago. And Americans should be flummoxed of the fact that it has 
taken to September 2006 for the Federal Government to be given 
the authority to begin the process of looking at security of 
chemical facilities. This is a real problem in part because the 
threat is such.
    I mean, one basic lesson we should surely have pulled away 
from the events of 9/11 was Al Qaeda did not import weapons of 
mass destruction; they converted four domestic airliners into 
them. Our own infrastructure could be used against us, and yet 
here we are this far down the pike and we're still carrying on 
fairly preliminary conversations about how to secure these 
facilities.
    What also makes us such a starking lapse is that the 
skillset of taking on the chemical industry and the petroleum 
refinery infrastructure is being developed in Iraq and in Saudi 
Arabia. And this expertise of insurgents and those who are 
involved in this war that we are poised against, eventually 
these insurgents are going to go home with the experience back 
to them or some will realistically tap into chat rooms and pick 
up the keys of how one does this. And so we simply must be 
operating on a recognition that we're on borrowed time; that we 
have these facilities and we need to think about securing them.
    Now, against this backup, of course, we have what would 
seem an insufficiency in 2006 when the Department of Homeland 
Security and the American Chemistry Council acknowledged that 
voluntarily measures are not working and they, therefore, 
authorized language in Fiscal 2007's Homeland Security spending 
law to provide a response.
    But I would argue it's ineffective for five critical 
reasons: First, the Department of Homeland Security simply has 
too few resources to do this job. They are receiving this year 
a possible $15 million on top of $10 million. They had to carry 
out and build the capacity to police an industry that has 
15,000 plus facilities around this country.
    To put that number into context, the Nuclear Regulatory 
Commission receives over $50 million to provide oversight for 
the 140 facilities within its purview. Now, that is every year 
giving them $50 million to provide oversight for security of 
nuclear facilities, and yet the Department of Homeland Security 
if going to receive this year $25 million. By the way, the 
extra 15 million has to come out of hide of the existing 
infrastructure budget because the budget asked for no 
additional funding for the Environmental Protection Office to 
do this critical issue.
    So you're asking the Department of Homeland Security now to 
take on this responsibility, overriding the State's ability to 
do this, and not providing the resources or the trained 
manpower to do it. That's a real limitation.
    The second issue is simply the authority that DHS has, it 
just simply lacks any teeth. The legislation says, ``That the 
Secretary may not disapprove a site security plan submitted 
under the section based on the presence or absence of a 
particular security measure, but the Secretary may disapprove a 
site security plan if the plan fails to satisfy the risk-based 
performance standards established by this section.''
    If that sounds like a bit of goodly guck to most people, I 
think it will be a legal nightmare for a Secretary to try to go 
in and say, I think these are limits and should be pushed back 
and there are other risk-based things you should take into 
account.
    The bottom line is, if the Secretary tries to enforce this 
rule, I think this will be a real limitation. The limited 
resources and limited authorities is what DHS is bringing to 
the table and providing Federal oversight of this critical 
issue. Larry Stanton, who we heard from today, who have been 
working long and hard at these issues without any resources and 
without adequate authority.
    The third issue is one I think you should be very sensitive 
to, Mr. Chairman, and this is the Right-to-Know Act, the need 
to know by communities. With other national disasters like 
tornados or hurricanes, we get warned and communities know what 
to do. People who are adjacent to these facilities don't know 
what's going on in them. And I worry the language is treated as 
if it were classified information, which puts you in a whole 
rubric of security claims process that's going to cut out state 
and local people from knowing what's being done in their own 
backyards.
    I would add as a fourth issue here, so we have this problem 
of limited authority, limited resources, things being done on a 
code of silence. Then we basically ask the DHS to preempt the 
State's ability to carry out and move this all further, and 
this is simply outrageous.
    The final ones I would highlight here is that the public 
law purposely exclude the situation of Inherently Safer 
Technology as an element of risk-based standards that DHS is 
called upon to assess.
    So the very thing the State has moved forward on, that we 
have to look at, at safer ways of doing this, is something they 
have stepped back down in. I can tell you, at many of these 
facilities around, where I've been, I can't provide a physical 
security plan that will make the community safe. They're just 
where they are and what they do. We're talking about suicide 
truck bombs. This is what played out this past weekend with 
chlorine trucks. When that plays out here, the physical 
security measures in place are not going to be up to par.
    Then we deal with release of chemicals that could kill 
potentially tens of thousands of people. You have to look at 
the way they do business and change the way they're doing 
business, if they're going to be located in the most congested 
state in the union.
    Now, I ask people to consider particularly the issue of 
anhydrous hydrogen fluoride, which is used in the refinement of 
gasoline. During an industry-sponsored test conducted in a 
Nevada desert in 1986, a small accident was simulated by 
releasing one thousand gallons of the chemical into the 
atmosphere for 2 minutes. The plume is heavier than air, so it 
hugs the ground. The test found there were lethal 
concentrations of this gas five miles away and up to seven-and-
a-half miles away. If you were exposed to it for 30 minutes, 
you would die, too.
    Now, of course, evacuation, people caught in the traffic. 
They are going to be 7.5 miles away. They are going to go into 
their cars and they're going to perish. This is one of the most 
painful ways to die. It basically vaporizes at 68 degrees and 
then spreads out and a plume downstream.
    The acid begins by burning the eyelids of the victims. Then 
they experience a dry, hacking cough. Breathing becomes 
increasing labored and painful as they gasp in more of the 
chemical. Their lungs become inflamed and congested, depriving 
them of oxygen and leading them to seizures. Ultimately, most 
people fall into a coma. And without medical attention, 
everybody caught in the toxic plume is dead within ten hours.
    Refineries near major urban areas could use an alternatives 
to hydrofluoric acid. We need to consider IST. We need to 
recognize that the Department of Homeland Security, while well 
intends people in the Departments trying to move forward, has 
not been given the legislative authority to. Governor Corzine 
is on track where we should go.
    And I'll finish by simply saying that one of the things 
that I most lament, in being involved with this issue well 
before 9/11 and being an essential part of the U.S. Commission 
on National Security and making the warning saying, we're going 
to have an attack on U.S. soil, and people not paying 
attention. I don't want to live with the angst again of this 
foreseeable threat we have not taken action here at home to 
address.
    I applaud you, Mr. Chairman, for moving this conversation 
forward.
    Senator Lautenberg.  Thanks very much for your testimony, 
Dr. Flynn.
    We'll hear now from Rick Engler of the New Jersey Work 
Environment Council, and invite you toproceed.

                                 ______
                                 
Statement of Stephen E. Flynn, Council of Foreign Relations, New York, 
                                New York
    Chairman Lautenberg, and distinguished members of the Subcommittee 
on Transportation Safety, Infrastructure Security and Water Quality. I 
am honored to appear before you this morning to discuss the vital issue 
of chemical facility security. At the outset, Mr. Chairman, I want to 
thank you for the exceptional leadership you have been providing in 
both raising the profile and advancing practical approaches to this 
complex challenge. You have been hard at work on this issue long before 
the attacks of September 11, 2001 exposed how vulnerable America is to 
catastrophic terrorist attacks on U.S. soil. Recognizing that 
communities may be jeopardized by accidents such as the tragic one that 
took place in a pesticide plant in Bhopal, India, in December 1984, you 
have played an instrumental role in advancing prudent safety measures 
such at the Emergency Response and Community Right to Know Act (EPCRA) 
to reduce the potential peril chemical facilities can pose to citizens 
who neighbor them.
    As I have previously testified before the Senate Homeland Security 
and Governmental Affairs Committee on April 27, 2005, there are 
hundreds of chemical facilities within the United States that represent 
the military equivalent of a poorly guarded arsenal of weapons of mass 
destruction. Deadly chemicals including chlorine, anhydrous ammonia, 
hydrogen fluoride, boron triflouride, cyanide, and nitrates are often 
stored in large quantities in densely populated areas adjacent to 
important infrastructures, such as water treatment plants, bridges, 
energy facilities, and transportation hubs. It is perplexing that a 
nation that has expended so much blood and treasure searching for 
weapons of mass destruction in Iraq, would allow what could become 
their equivalent to sit largely overlooked on U.S. soil. It is prudent 
to recall, that on 9/11, Al Qaeda did not import weapons of mass 
destruction; they converted four domestic airliners into them.
    Like many students of terrorism, I believe that Al Qaeda or one of 
its growing number of radical jihadist imitators will attempt to carry 
out a major terrorist attack on the United States within the next five 
years. At the top of the list of likely targets is the chemical 
industry. Al Qaeda has been acquiring experience in these kinds of 
attacks in Iraq and Saudi Arabia. Between January 2004 and March 2006, 
insurgents carried out attacks on oil and gas facilities and pipelines 
that cost Iraq more than $16 billion in lost oil revenues. The details 
of their tactics are shared in Internet chat rooms. Further, many of 
the foreign insurgents have returned or will return to their native 
countries with the experience and practical skills of successfully 
targeting these kinds of facilities.
    The effort to advance the security of chemical facilities in the 
United States is long overdue. Americans should be flummoxed that it 
took more than five years after September 11, 2001 for Congress to 
provide Federal officials with the authority to regulate security for 
many of the nation's highest risk chemical facilities. They should be 
even more baffled by the anemic legislative authority contained in the 
2007 Department of Homeland Security Appropriations Act and the 
recently released interim rule-making language issued by the Department 
of Homeland Security in February 2007. I am deeply concerned that the 
recent actions of Congress and the Department of Homeland Security will 
actually serve as a barrier to progress on chemical security. I 
strongly urge that new legislation be drafted and enacted as soon as 
possible to address the critical shortcomings of these actions
    The explanation for the lack of progress on this serious issue 
rests in part with the longstanding distrust by the chemical and 
petroleum industries of Government efforts to regulate them. This can 
be traced to the adversarial relationship that has long marked 
relations between the Environmental Protection Agency and chemical 
firms. The industry also has had a generally strong safety record which 
it believes should translate into a more hands-off approach by 
Government to how it does business. Additionally, some chemical 
producers are facing mounting global competition that has eroded their 
profit margins, making them understandably anxious about new 
requirements that raise their costs and place them at a competitive 
disadvantage.
    On its face it would appear that 2006 was a watershed year for the 
chemical security agenda. Both the American Chemistry Council and the 
Department of Homeland Security publicly acknowledged that voluntary 
measures were not working. However, the authorizing language of the 
fiscal 2007 Homeland Security spending law (PL109-295) is proving to be 
an ineffective response for five critical reasons.
    First, the Department of Homeland Security is provided with too few 
resources to become an effective partner in working with the chemical 
industry so as to provide reasonable oversight. The Department is 
receiving only $15 million in new funding in FY08. This will be added 
to the paltry $10 million budget it has had for the oversight for an 
industry that that has thousands of facilities producing extremely 
hazardous chemicals. To put that number into context, the Nuclear 
Regulatory Commission receives over $50 million to provide security for 
the nation's 140 nuclear power facilities. Another way to view that 
number is that the United States has been spending an average of $250 
million each day on the war in Iraq since the spring of 2003. Thus the 
total expenditure for safeguarding some of the nation's most hazardous 
facilities amounts to what we spend every 150 minutes in Iraq. Further, 
President Bush's FY 2008 budget asked for no additional overall funding 
for DHS's Infrastructure Protection Office which has been assigned the 
lead of implementing this new DHS responsibility. In other words, the 
$15 million in new funding that is being applied towards building the 
Department's new capacity to oversee the chemical industry will come at 
the cost of other infrastructure protection programs managed by that 
office.
    Second, the authority provided to the Secretary of Homeland 
Security to sanction a facility for failing to invest adequately in 
security is unworkable. Specifically, the legislation says:
    That the Secretary may not disapprove a site security plan 
submitted under this section based on the presence or absence of a 
particular security measure, but the Secretary may disapprove a site 
security plan if the plan fails to satisfy the risk-based performance 
standards established by this section.
    As a practical matter, even if DHS was receiving the resources to 
hire the personnel to conduct a comprehensive site assessment (and it 
is not) it would embark on a legal nightmare trying to disapprove a 
facility plan--which could potentially lead to the termination of 
operations at a facility--based on an assessment of ``risk-based 
performance standards.'' This is because such an assessment would be 
open to competing interpretations that would inevitably get bogged down 
in the Federal court system. The end result is that the Secretary has 
been given a sanctioning authority in name only. DHS will not be able 
to execute that authority except when there are blatantly egregious 
circumtances.
    Third, the new legislative language works against one of the most 
important imperatives in addressing chemical facility safety: the 
involvement of the community. The need for public disclosure of 
information that could affect the safety and well-being of a community 
rests at the heart of the ``Emergency Response and Community Right to 
Know Act (EPCRA).'' While communities generally receive adequate 
warning and direction on what to do when it comes to natural events 
like hurricanes and tornados, historically, neighbors to dangerous 
chemical facilities have lived largely in the blind when it comes to 
the hazards they may be exposed to and are often unaware of the steps 
they should take to protect themselves in the event of a chemical 
release. While there is legitimate reason to treat some security 
information as sensitive, the act goes too far by requiring DHS to 
treat vulnerability or security information under this section, ``as if 
the information were classified material'' and stipulating that this 
information be provided only to ``State and local Government officials 
possessing the necessary security clearances, including law enforcement 
officials and first responders.'' This onerous requirement effectively 
places the overwhelming majority of State and local officials and 
emergency responders out of the loop when it comes to the security of 
plants nestled within their own communities. Few officials hold these 
clearances and there is already an extensive backlog in providing them. 
As a consequence, the vast majority of emergency planners who are 
responsible for putting together the local response to disasters will 
have to make these plans without an understanding of the 
vulnerabilities and the existing security protocols that are in place 
at a facility. Further, local communities will have little to no 
ability to make informed zoning decisions in areas adjacent to these 
facilities.
    The excessive new protections of vulnerability and security-related 
information reinforces one of the most serious shortcomings of the act 
which is its failure to allow State Governments to enact stronger 
security requirements than those adopted at the Federal level when 
those States determine such requirements are appropriate to 
safeguarding their populations. This has led DHS to interpret the act 
in its proposed interim final regulation in such as way that the 
Federal Government may actually preempt a State chemical security 
measure that it determines will interfere with its risk-based 
performance standards. The net result is that while DHS possesses 
little in the way of expertise and is not being provided adequate 
resources to provide effective oversight of the chemical industry and 
has been given an anemic--at best--sanction authority, it is taking the 
position that has the right of preemption over States who have stronger 
and more enforceable State standards such as those enacted in New 
Jersey. This is Federalism turned on its head. While States and locals 
are responsible for dealing with the aftermath of a disaster associated 
with a chemical plant about which it has historically possessed more 
intimate knowledge than the Federal Government, the Federal Government 
is now maintaining that it alone has the authority to set the rules 
governing the security of these facilities.
    Finally, the gravest shortcoming of the chemical security authority 
provided to DHS under PL-109-295 is that it purposely excluded the 
consideration of inherently safer technology (IST) as an element of the 
risk-based standards that DHS is called upon to assess. The problem 
with this is that it fails to acknowledge that there will always be 
inherent limits to physical security measures for a facility that is 
proximate to a major population center, especially in the face of a 
terrorist attack involving a suicide bomber. Should there be an attack 
on a chemical facility on U.S. soil involving truck bombs like those 
that have been taking place with growing frequency in Iraq and such as 
the February 24, 2006 attack on the Abqaig Oil Processing Facility in 
Saudi Arabia, the likely result will be the release of deadly chemicals 
endangering the lives of tens of thousands of people downwind from that 
facility.
    Consider the case of anhydrous hydrogen fluoride which is used in 
the refinement of gasoline. During an industry-sponsored test conducted 
in a Nevada desert in 1986, a small accident was simulated by releasing 
one thousand gallons of the chemical into the atmosphere for two 
minutes. The plume is heavier than air, so it hugs the ground. The test 
found lethal concentrations of hydrofluoric acid aerosol were present 
up to 5 miles away. At 7.5 miles there were still concentrations of the 
vapor at levels immediately dangerous to life and health for people who 
breath it in over a thirty-minute period.
    There are few more painful ways to die then by exposure to 
hydrofluoric acid. The acid begins by burning the eyes and eyelids of 
its victims. Then they experience a dry, hacking cough. Breathing 
becomes increasingly labored and painful as they gasp in more of the 
chemical. Their lungs become inflamed and congested, depriving them of 
oxygen and leading to seizures. Ultimately, many people fall into a 
coma. Without immediate medical attention, everyone caught in the toxic 
plume will die within 10 hours.
    Refineries near major urban areas could use an alternative to 
hydrofluoric acid that poses less of a danger to the surrounding 
community. In fact two-thirds of the refineries in the United States do 
just that. My colleague, Lawrence Wein, a professor of management 
science at the Stanford University Business School, has determined that 
for a conversion cost of $20 million to $30 million per refinery, 
sulfuric acid could replace hydrofluoric acid in the alkylation process 
used to manufacture high-octane gasoline. Sulfuric acid can pose 
dangers as well, and the refinery would need to use larger quantities 
of it than anhydrous hydrogen fluoride. However sulfuric acid does not 
need to be stored under pressure, nor does it form a dense cloud when 
it is released. As a consequence, a terrorist attack on a refinery 
using sulfuric acid would create a nasty chemical spill that would have 
to be cleaned up within the facility, but the neighboring population 
would not be seriously endangered.
    Quite simply, the consideration of IST must be a part of any 
reasonable effort to address the security risk associated with the 
chemical industry within the United States. I applaud Governor Jon 
Corzine and the State of New Jersey for embracing this approach. I am 
particularly gratified by Governor Corzine's announcement on Friday 
March 16th, to enact new rules that would require 94 industrial 
facilities including chemical plants, oil refineries, industrial food 
processors and water treatment plants to find safer ways to handle the 
lethal chemicals they use or use less dangerous chemicals altogether. 
New Jersey's citizens face the gravest risk from this threat and to the 
State's credit, it has chosen to lead the nation in developing a 
pragmatic strategy for confronting this risk. It would be travesty if 
the new and long-overdue Federal legislation, ostensively advanced to 
improve the security of chemical facilities around the nation, had the 
end result of actually eroding that security in a State where the 
public safety stakes are enormous and where the requisite political 
leadership to tackle the challenge has been most forthcoming.
    While I was completing the preparation of my written testimony, CNN 
released a news report of an attack by suicide bombers who detonated 
three chlorine-filled trucks in Anbar province on Friday, March 16, 
2007. Accordingly to U.S. military forces, the attacks killed two 
police officers and sickened about 350 Iraqis and six coalition force 
members. As someone who was monitoring the Al Qaeda threat in the 1990s 
and their attacks on U.S. barracks in Saudi Arabia, U.S. embassies in 
East Africa, and the USS Cole, one of my greatest frustrations prior to 
9/11 was that Americans seemed to believe that what was happening 
beyond our shores would never happen here. I had the privilege of 
serving in support of the U.S. Commission of National Security (Hart-
Rudman Commission) that warned in their final report released in 
January 2001 of the growing risk of a catastrophic terrorist attack on 
U.S. soil. I have since had to live with the angst of seeing that 
warning unheeded in advance of the attacks of 9/11. I do not want to 
live with that angst again when it comes to the terrorist risk posed to 
our chemical and petroleum facilities.
    I strongly urge that Congress and the Bush Administration work 
together to redraft the legislative language on chemical security 
enacted into law last October to address the shortcomings I have 
outlined here today.
    Thank you and I look forward to responding to your questions.

      STATEMENT OF RICK ENGLER, DIRECTOR, NEW JERSEY WORK 
                     ENVIRONMENTAL COUNCIL

    Mr. Engler.  Thank you very much. The New Jersey Work 
Environment Council is an alliance of labor, community, and 
environmental organizations that advocates for safe, secure 
jobs and a healthy, sustainable environment. Our 70-member 
organization includes many unions, such as affiliates of the 
United Steelworkers and Teamsters, which directly represent 
workers employed by industries that use highly hazardous 
chemicals, the State's largest environmental groups, and 
community groups whose members live within the vulnerability 
zones of industrial facilities.
    Ensuring chemical safety and hometown security for New 
Jersey's workers and communities has been a major priority for 
WEC over the last 5 years. We have developed and advocated for 
new policies and offered training and educational programs to 
workers and the public. We have a formal partnership with the 
United Steelworkers, our state's largest industrial union, 
which represents thousands of workers across this state to help 
provide training focusing on chemical safety and security.
    Most of today's testimony has been focused on DHS. But 
lurking behind this agency is the chemical industry, who 
virtually directed the Bush-Chaney Administration to adopt 
these rules. It is our understanding that chemical industry 
representatives were invited to this hearing. Frankly, given 
the gravity of this issue, it is a moral outrage that they 
decided not to participate today to explain their position, to 
explain whether they would take steps to challenge New Jersey 
or other state action on this matter. And it's one of grave 
concern to us. They can run, but they cannot hide. We 
appreciate you holding this hearing, and we will follow up to 
ensure that their position on this issue is made as well-known 
as the DHS position has been made well-known by today's 
hearing. We again thank the subcommittee for holding this 
hearing.
    Senator Lautenberg, you have been a leader on this issue 
and a consistent champion for the public's right to know and 
right to prevent toxic exposure. We share the concerns of many 
unions, environmental organizations, Governor Corzine, and our 
Congressional delegation, that the proposed Department of 
Homeland Security rules are fundamentally flawed. DHS, EPA and 
the Occupational Safety and Health Administration or OSHA 
should address this matter through an integrated approach that 
encourages State initiative and that does not give DHS power to 
derail state action.
    Our testimony has five points, and I'll summarize them: New 
Jersey has taken precedent setting action to ensure the 
inseparable goals of chemical safety and security. The proposed 
DHS rules could conceivably harm, rather than protect, the 
people of New Jersey and other States.
    The chemical industry lobby--and I want to emphasize this--
or any one of its individual member companies--could use DHS 
preemption rules to challenge New Jersey policies. So, for 
example, if our State trade association says, well, we can work 
this out, we can figure this out, we hope there's a compromise. 
The fact is, they don't represent all of the chemical companies 
in this state. And anyone of them, even their member companies, 
could pose a challenge through the way the DHS rules are 
constructed at present.
    OSHA, who is not represented here today, a subject for 
another day, have absolutely failed to enforce laws that could 
address chemical incident prevention and responses that are 
directly related to this challenge.
    In summary of New Jersey efforts. We talked a little bit 
about the approach on Inherently Safer Technology. And we 
applaud Governor Corzine for his action in this area. I would 
like to emphasize worker participation and union involvement as 
being extremely important, perhaps equally important, as 
inherently safer technology. Who knows better than front-line 
workers, not me in this suit, but people who work day in and 
day out on the front-lines in our facilities across our states, 
what the hazards and vulnerabilities are. There's no one 
better.
    And I'm pleased that New Jersey has taken action to 
authorize workers and local union representatives to accompany 
DEP inspectors to point out potential workplace environmental 
security dangers under the Toxic Catastrophe Prevention Act 
(TCPA). This right for workers and their unions to help protect 
public safety of the environment and security applies at the 94 
facilities covered by TCPA.
    And just last Friday DEP issued a new Administrative Order 
that worker and Union representatives could participate in 
agency inspections at 330 facilities covered by the Spill Act 
regulations to help point out risks related to hazardous 
chemicals.
    The third accomplishment of the State of New Jersey, is our 
training requirements. Our training requirements are that 
chemical plants train worker-trainers and their entire 
workforce about chemical safety and security. The required 
curriculum for this program was developed by the New Jersey 
State AFL-CIO and the United Steelworkers. The New Jersey 
Office of Homeland Security required training through a July 
2006 mandate for 154 chemical plants employing more than 38,000 
workers. This is a serious effort. It's not perfect. It needs 
additional fine-tuning, as might be expected to address a 
problem of this scale. But it is very important that the State 
be able to maintain these kinds of policies. WEC and our 
organization is pleased to help make all of these policies 
happen.
    There is nothing in the proposed DHS rules that address the 
need for Inherently Safer Technology, nor is there any 
requirement for worker and union participation to help prevent 
hazards. In fact, the only reference to workers by the DHS 
proposal focuses on criminal background checks of long-term 
employees.
    Our belief and view is that such background checks won't 
identify terrorists. After all, none of the 9/11 high-jackers 
had criminal records. And criminal background checks of long-
term, dedicated employees will be used to retaliate against 
them and their union leaders, who speak out for safety, 
environmental, and security safeguards.
    I did a computer kind of search through the DHS rule using 
words like ``worker, employee, union,'' and what jumped out is 
that there was only a request to unions to comment on the 
employee background checks, but nothing about a positive role 
for employees who, again, are on the frontlines.
    We believe that corporate executives and their lobbyists, 
along with their DHS allies, must not be allowed to place even 
higher profits ahead of worker and public safety and private 
security. We support the efforts of the subcommittee to block 
preemption.
    We would also like to comment briefly on OSHA's role on 
this, which hasn't been------
    Senator Lautenberg.  Be brief.
    Mr. Engler.  We have an existing OSHA standard, the Process 
Safety Management Standard. It hasn't been adequately enforced. 
Earlier, there was testimony about Kuehne Chemical plant in 
South Kearny. That facility, which has the greatest potential 
off-site consequence of any facility in New Jersey, hasn't been 
inspected by OSHA since September 12, 1997.
    Under the Process Safety Management Standards, we've urged 
OSHA to develop a plan to enforce that standard in New Jersey. 
They said they'll consider it and we're waiting to hear back.
    Just to finally emphasize the question of worker 
participation. And since safety, including workers' safety and 
security are inseparable, we think that there are continuing 
problems, despite the spin of the industry.
    I'll give you a couple of quick examples of the exclusion 
of workers from safety and security policy. At a major chemical 
plant in South Jersey, in fact, the largest chemical plant in 
South Jersey, the railcars that store highly-hazardous 
substances were stored on the periphery of the plant.
    Suddenly, those railcars are moved into the center of the 
plant. Not commenting on what's safer, what's not safer, but 
the workers there and the local union felt this was an outrage. 
They have a Safety Committee. They try to participate. The 
United Steelworkers tries to protect not only their members, 
but the community. And not to have any process of consultation 
about moving railcars into the very center of this huge 
chemical plant is something that was severely demoralizing to 
the workforce and not something that encouraged them to help 
play an active role in protecting themselves and their 
neighbors.
    Senator Lautenberg.  Mr. Engler, in fairness to the others 
and the press.
    Mr. Engler.  I'll conclude by saying, thank you.
    Senator Lautenberg.  And we invite you to submit any 
further testimony. We have copies of your written testimony, 
and each of you offered a particular insight into this problem.
    And I'm reminded, Mayor Bollwage, that the Chemical Control 
facility, that we talked about, was kind of an inspiration 
supported by both to take a law that New Jersey had, to release 
inventory, and make it Federal Law, because it was more rigid 
than anything that the Federal Government had. And it passed. 
And it reduced substantially the toxic emissions that came out 
of companies in the area. And it was largely a voluntary 
program. The only penalty was exposure for the public to see 
which companies were putting more poisons in the air or 
unacceptable levels of toxic emissions. So it was very helpful.
    And so I remember vividly the explosion and the fire at 
Chemical Control, as you described it. Many of the firefighters 
later suffered health effects. And we see that also in the 
aftermath of the 9/11 attack, that people were made ill, and it 
wasn't recognized until a substantially later period. And, by 
the way, we see injuries today coming from Iraq, that people 
are showing signs of deteriorating functionality.
    And so we have to look at this in its broadest context. And 
why on earth they are insisting, as you heard, that what is 
going to help in some way to have this national standard, 
that's weaker than ours and weaker than many other states 
across the country, why it's going to be better for us. And so 
we this hearing today I think will have accomplished a lot.
    Mayor Bollwage, we have to protect those who are called on 
at first to do their job, and we have to make sure that we at 
least give those first responders enough of a cautionary 
structure that says, look, you've got to be aware of what it is 
that you may face.
    One of the things, I think, Mayor Bollwage, there was an 
incident, I don't know whether it was Chemical Control, but the 
uniforms that the firefighters wore actually deteriorated with 
the exposure to the chemical release that came about. And so 
shouldn't we be protecting our first responders as national 
security priority at all levels of Government.
    Mr. Bollwage.  Mr. Chairman, absolutely. And I was 
horrified to hear Dr. Flynn speak of these vaporized things. 
And Chemical Control, while it was not that severe, the 400 
firefighters that fought it, 19, even to this day, 27 years 
later, we hear of firefighters who were there contracting 
certain diseases in direct relation or correlation to their 
exposure to chemicals at that Chemical Control fire in 1980. 
And some died in the late 1980S, as well, due to the chemical 
plume that basically twisted over Elizabeth and Staten Island.
    At that point, Mr. Chairman, the plume and the wind 
direction was important to recognize, because it was blown in 
the direction of Staten Island over the Arctic Hull, where 
there was less inhabitables. But if that wind was blowing the 
other way, over the City of Elizabeth, with 125,000 people in 
the surrounding community, it would have affected a lot more 
people than it eventually did.
    And we need the ability to regulate these facilities and do 
our own necessary security, as opposed to relying on a ``one 
fits all'' type of purpose for the entire nation.
    Senator Lautenberg.  I agree.
    Dr. Flynn, your very articulate presentation of what 
constitutes weapons of mass destruction, is that in front of 
us. And we know that information was ignored before 9/11 that 
should have put us on a much more defensive position than we 
were, and the consequences are impossible to calculate. And so 
here we are now we're facing this.
    One of the things that you mentioned, and it is a little 
oblique from here, is that I'm very active in trying to get 
Amtrack as an item more available, more efficient, because if 
there is an evacuation called for and we have to have all means 
available--I mean, heaven forbid that we should be trying to 
evacuate a facility fire and explosion and having to go 
exclusively to the main routes, to the Turnpikes, et cetera, to 
the airports. There is no way we can handle it. And so we have 
to be more aggressive in our preparation to deal with these 
things. And giving DHS the right to preempt I think is really a 
step that's way back.
    For instance, do the chemical security rules proposed by 
the Administration, do they fill all the gaps that exist, or 
should we call on the states to do their best to establish 
their own levels of protection?
    Mr. Flynn.  I think, clearly, it's a case, just as you 
outlined at the outset, Mr. Chairman, of taking a Best Practice 
at the State level and moving it to the Federal level. That's 
what we have potential for with what's happening here in New 
Jersey. Not surprising, the State that has the most at risk, 
the greatest stakes, but has a level of cooperation between 
local officials in the industry and the labor. This is a 
capability that doesn't exist in the proper Homeland Security.
    It may well be they're not adequately resourced. We've been 
spending 250 million every day since the spring of 2003 on the 
war in Iraq. So we've been spending, on this issue, this year, 
we'll be spending 150 minutes of the war in Iraq.
    Now, it just doesn't make any sense, given the scale of 
this threat and vulnerability of our own citizens. We should be 
making this environment--I'll just reinforce your intra with 
Amtrack. President Eisenhower was probably the last president 
who looked at our infrastructure as national security. But, of 
course, our highway system was built around the Interstate 
Highway and defensibility to basically immobile, but also to 
evaluate that the cold war got hot. Somehow, we're fighting 
this war on terrorism entirely disconnected from the reality 
that our infrastructure is essential to protecting our 
citizens. And, ultimately, we, the people, must be involved to 
a far greater extent.
    It seems unbelievable to me, having spent 5 1/2 years of 
frustration trying to get Homeland Security issues dealt with 
in a real serious way, and getting pushed back, that really 
this is a state and local responsibility, private sector 
responsibility, because the job of the Federal Government is 
national defense under, beyond our borders.
    And then, finally, the most critical infrastructure in 
terms of vulnerability that we get the insertion, where it's a 
federal government that knows best in the states and locals 
should be cut out of the loop.
    Senator Lautenberg.  You know what, Dr. Flynn, I think 
they're hearing voices, and they're not the voices that we want 
to most listen to. The voices are there. And once again, we 
know that the industry provides us with all kinds of wonderful 
resources and so forth, but they shouldn't be allowed to 
prescribe law that protects their interests ahead of the 
peoples' interests. And we find things like that going on 
throughout government now, whether it's the oil industry or the 
defense industry or what have you.
    So we'll take all of your comments to heart and see if we 
can do something about ensuring the fact that we in New Jersey 
know best what's happening for us and what we have to do to 
protect our citizens. And we're going to work very hard at it. 
And we invite all three of you to continue to monitor the 
situation and let my office know if you see anything we ought 
to be doing.
    Thank you all very much and thanks everybody for 
participating in this hearing. I have a statement that I'm 
going to put in the record from the Steelworkers. And I want to 
note, Mr. Engler, there is a bunch of comments submitted by the 
United Steelworks concerning the Department of Homeland 
Security's Proposed Rule establishing Chemical Facility Anti-
Terrorism Standards.
    And, Mr. Engler, one of the things that has to happen in 
all of these calculations is to make sure that those people who 
are working there, who are the first to be exposed, who are 
first to suffer the injury, are protected. And if we can 
protect them, then we have a surefire better chance of 
protecting our citizens who are a further distance away.
    Thank you all for your good work. I appreciate it. This 
hearing is concluded.

                                 ______
                                 
Statement of Rick Engler, Director, New Jersey Work Environment Council
    Good morning and thank you for your invitation to the New Jersey 
Work Environment Council to present testimony today. My name is Rick 
Engler. I am Director of the New Jersey Work Environment Council or 
``WEC.'' WEC is an alliance of labor, community, and environmental 
organizations that advocates for safe, secure jobs and a healthy, 
sustainable environment. Our 70 member organization includes many 
unions, such as affiliates of the United Steelworkers and Teamsters, 
which directly represent workers employed by industries that use highly 
hazardous chemicals, the State's largest environmental organizations, 
and community groups whose members live within the vulnerability zones 
of industrial facilities.
    Ensuring chemical safety and hometown security for New Jersey's 
workers and the public is a WEC priority. For the last five years, WEC 
has worked to achieve this goal through developing and advocating for 
new State policies and by offering educational programs to workers and 
the public. We have a formal partnership with the United Steelworkers, 
our State's largest industrial union, which represents thousands of 
chemical and oil workers, to provide training about chemical safety and 
security through their Tony Mazzocchi Center for Health, Safety, and 
Environmental Education. Our President, John Pajak, a rank and file 
worker at the Conoco-Phillips oil refinery in Linden and a member of 
Teamsters Local 877, was proud to stand with you and Senator Menendez 
last year when you, despite vociferous industry opposition, announced 
introduction of the Chemical Safety and Security Act of 2006.
    WEC thanks you for holding this important hearing focusing on the 
value of State and local policies to ensure chemical safety and 
security. Senator, you have been a leader on this issue and a 
consistent champion for the public's right to know about and right to 
prevent exposure to toxic chemicals, dating back to your sponsorship of 
the Emergency Planning and Community Right to Know Act in 1986.
    We share the concerns of many unions, environmental organizations, 
Governor Corzine and our Congressional representatives, that the 
proposed Department of Homeland Security (DHS) rules are severely 
flawed.
    The major points of my testimony are:

    1) The proposed rules on preemption far exceed Congressional 
intent. If DHS adopts them in their current form and they are upheld by 
the Courts, these rules will harm, not protect, the people of New 
Jersey and other States that act to address the new threats of a 
terrorist attack.
    2) While DHS proposes to derail State protections, other Federal 
agencies fail to enforce existing laws that promote chemical safety and 
security.
    3) There are three underlying principles for policy that can 
effectively address chemical safety and security--safe operation, 
maintenance and design of facilities, meaningful worker and union 
participation, and cooperation between Government agencies that address 
those issues.
    4) There are at least thirteen key elements for a minimally 
effective State or national policy to ensure chemical safety and 
hometown security. These points are summarized in this testimony.

  new jersey is the national leader for chemical safety and security 
                                 policy
    New Jersey has taken some important actions to ensure both safety 
and security. Historically, these steps have included:

     Enactment of the 1984 Worker and Community Right to Know Act, 
which along with subsequent Federal laws, allows workers, plant 
neighbors, and emergency responders to learn about chemical hazards; 
and
     Enactment of the 1984 Toxic Catastrophe Prevention Act (TCPA), 
after Union Carbide's Bhopal, India disaster, which requires facilities 
that use extraordinarily hazardous chemicals to implement risk 
management plans. Because of this law, more than 300 water and sewage 
treatment plants no longer use large quantities of chlorine. The law 
served as a model for amendments to the Federal Clean Air Act (CAA).
    Under the Administrations of Governors Codey and Corzine, New 
Jersey has adopted three significant and precedent-setting new 
policies:

    1) In November 2005, New Jersey became the first State in the 
nation to require that approximately 42 chemical sector facilities 
evaluate whether they can adopt ``built-in'' safety measures, a 
strategy to promote use of ``inherently safer technology'' by issuing 
Best Practice Standards for the chemical industry. Just last Friday, at 
the direction of Governor Corzine, the Department of Environmental 
Protection (DEP) issued a rule proposal to expand this requirement to 
cover 94 facilities, including oil refineries, paper mills, and water 
and sewage treatment operations. Other provisions in the Best Practice 
Standards require management of 154 facilities using highly hazardous 
substances to conduct vulnerability assessments, forward the 
Occupational Safety and Health Administration's (OSHA) Process Safety 
Management (PSM) Standard violations to DEP, and consider workers' and 
unions' input.\1\
---------------------------------------------------------------------------
    \1\Best Practice Standards At TCPA/DPCC Chemical Sector Facilities, 
NJ DEP and NJ Domestic Security Preparedness Task Force, November 21, 
2005
---------------------------------------------------------------------------
    2) In October 2005, New Jersey became the first State in the nation 
to allow and encourage workers and their union representatives to point 
out hazards while accompanying DEP staff on inspections at 94 of New 
Jersey's most hazardous facilities, those covered by the State's Toxic 
Catastrophe Prevention Act. These facilities include chemical plants, 
oil refineries, paper mills, food processing plants and water treatment 
and sewage operations.\2\ Also, on March 14, 2007, the DEP issued a new 
Administrative Order ensuring that workers and union representatives 
can participate in inspections conducted under the Discharge, 
Prevention, Containment and Control (DPCC) program.
---------------------------------------------------------------------------
    \2\NJ DEP Administrative Order No. 2005-05, October 1, 2005.
---------------------------------------------------------------------------
    3) In July 2006, New Jersey became the first State in the nation to 
issue a requirement that 154 New Jersey chemical plants employing more 
than 38,000 workers train worker-trainers and their entire workforce 
about chemical safety and security. The required curriculum, developed 
by the United Steelworkers and the New Jersey AFL-CIO, covers mapping 
risks to workers and surrounding communities and underlying systems of 
safety.\3\
---------------------------------------------------------------------------
    \3\Security Awareness and Preparedness Program for the NJ Chemical 
and Petroleum Sectors. A WEC fact sheet on this requirement can be 
found at www.njwec.org.
---------------------------------------------------------------------------
    These three policies are significant accomplishments. WEC and our 
allies are pleased to have helped make them all happen. The chemical 
lobby claims that they will not challenge these policies ``as currently 
implemented''\4\ [our emphasis].
---------------------------------------------------------------------------
    \4\``ACC does not believe that the New Jersey, New York, Maryland 
or Baltimore programs--as currently implemented--frustrate that 
flexibility.'' Source: American Chemistry Council (ACC) Comments on 
DHS--2006--0073, February 7, 2007, pages 4 and 24.
---------------------------------------------------------------------------
    However, Governor Corzine has pledged further initiatives for 
chemical safety and security. The chemical lobby--or just one of its 
individual member companies--could use DHS preemption rules to 
challenge New Jersey's existing and/or new initiatives.
    To put it simply, if the chemical industry wins by stopping New 
Jersey from taking strong action to meet the particular needs of our 
State, workers and the public lose. Corporate executives and their 
lobbyists, along with their friends at DHS, must not be allowed to put 
even higher profits ahead of worker and public safety and security. New 
Jersey and other States must be free to require industries that use 
hazardous chemicals to operate safely and securely.
    In addition to the industry developed preemption language, the 
proposed DHS rules:

     Do not encourage facilities to adopt inherently safer and more 
secure approaches that minimize catastrophic risks and reduce the 
attractiveness of facilities as terrorist targets.
     Fail to engage workers and their unions when requiring plant 
management to assess risks or as part of ongoing consideration of 
safety and security concerns.
     Attempt to cover-up knowledge of toxic dangers through 
potentially gutting the worker and public ``right to know provisions'' 
of existing Federal and State laws, including the Occupational Safety 
and Health Act and the Emergency Planning and Community Right to Know 
Act.
     Undermine Government accountability through excessive secrecy. 
People will not be able to find out if DHS is requiring a facility to 
improve security or not.
     Include provisions for criminal background checks of long-term 
employees that won't identify terrorists but will likely be used to 
retaliate against workers and their union leaders who speak out for 
safety, environmental, and security safeguards.

    WEC urges Congress to promptly pass comprehensive chemical safety 
and security legislation along the lines of your Chemical Safety and 
Security Act of 2006.
    Such legislation should supersede the proposed DHS regulations and 
charge the Environmental Protection Agency (EPA) and OSHA, as well as 
DHS, with greater authority to prevent and respond to chemical 
incidents, whether they are caused by a terrorist attack or a 
``routine'' accident.
    An underlying principle of such legislation--in stark contrast to 
the current DHS proposal--would be that worker and public safety are 
inseparable from security. The industry's focus on perimeter hardening, 
in other words, more gates, barriers, lights, and guards, is not in 
itself a bad thing. No one wants unauthorized individuals, whether they 
are terrorists or vandals, entering potentially hazardous operations.
    However, the approach that needs support from industry, instead of 
their misleading and misplaced opposition, is one that would emphasize 
making changes to the underlying systems of safety and ensuring that 
inherently safer approaches are adopted.
while dhs proposes to derail state protections, other federal agencies 
                      don't enforce existing laws
    Ironically, the Federal Government has had important regulatory 
tools to promote safety and security since well before September 11, 
2001--but has chosen not to utilize them.
    OSHA's Process Safety Management Standard is the agency's most 
important rule for preventing catastrophic events at facilities with 
highly hazardous chemicals. Issued in 1992, it requires covered 
employers to conduct a ``Process Hazards Analysis'' to review what 
could go wrong and what safeguards must be taken to prevent releases of 
highly hazardous chemicals. The standard mandates written operating 
procedures, employee training and participation, pre-startup safety 
reviews, evaluation of mechanical integrity of critical equipment, 
contractor requirements, and written procedures for managing change. It 
also requires a permit system for ``hot'' work, incident investigation, 
emergency action plans, and employer internal audits at least every 3 
years.\5\
---------------------------------------------------------------------------
    \5\Related OSHA Standards, such as Hazard Communication, also help 
to prevent chemical accidents and exposures.
---------------------------------------------------------------------------
    However, a WEC review of OSHA's enforcement record of private 
sector facilities in New Jersey has found that the agency has conducted 
few PSM inspections of PSM covered facilities since 9/11.\6\ Of the 21 
facilities in New Jersey that could each potentially harm up to 15,000 
people or more--all of which are covered by the PSM standard:
---------------------------------------------------------------------------
    \6\Correspondence to Rick Engler, WEC Director, from Patricia K. 
Clark, Regional Administrator, OSHA, February 8, 2007 in response to a 
WEC Freedom of Information Act Request.
---------------------------------------------------------------------------
     Only eight have received an OSHA inspection since September 11, 
2001.
     Six have never even had one PSM OSHA inspection. These include 
facilities which could potentially endanger between 20,000 and 500,000 
people.
     Seven were inspected before September 11, 2001, but have not been 
inspected since. These include facilities which could potentially 
endanger between 34,104 and 12 million people. For a notable example, 
OSHA has not inspected the Kuehne Chemical plant in South Kearny since 
September 12, 1997.

    Please see the attached table listing facilities and OSHA 
inspection data.\7\
---------------------------------------------------------------------------
    \7\The data in this table is from US EPA Risk Management Plans and 
the OSHA compliance database online at www.osha.gov. Last OSHA 
inspection dates were also confirmed by OSHA Area Office Directors.
---------------------------------------------------------------------------
    When OSHA has conducted PSM inspections, the agency has found 
violations of this standard. For example:

     On January 21, 2005, a violent explosion from the ignition of 
acetylene at the Acetylene Service Company in Perth Amboy, New Jersey 
killed three workers. OSHA subsequently found many serious and willful 
violations, including violations of the PSM standard, and penalized the 
company $ 176,790.
     On March 29 and April 19, 2005, a chemical explosion and leak, 
respectively, at the Siegfried, USA pharmaceutical plant in Pennsville, 
New Jersey injured a number of workers. OSHA subsequently found serious 
PSM and other violations and penalized the company $ 4,500.
     Since 9/11, OSHA inspections have also resulted in PSM citations 
and fines for Ashland Chemical in Totowa ($3,465), DuPont in Deepwater 
($4,250), and ConocoPhillips in Linden ($23,060).

    WEC has urged OSHA to promptly develop a comprehensive plan to 
enforce the PSM standard in New Jersey. They are currently considering 
our request. We ask that Congress direct OSHA to strengthen the PSM 
standard and to systematically inspect high risk facilities.
    The U.S. EPA, like OSHA, has also chosen not to use their full 
authority to prevent chemical accidents. For example, Section 112(r) of 
the CAA, enacted in 1990, says that workers and union representatives 
have a right to participate in EPA inspections, which would include the 
right to accompany EPA inspectors during risk management plan (RMP) 
compliance inspections and accident investigations.\8\ Governor Corzine 
has said, ``Who knows more about a plant than the workers who work 
there?'' Workers are on the front lines. Because of their experience 
and skills, they are intimately familiar with their work environment. 
Workers can point out hazards, risks, and vulnerabilities that may not 
be readily apparent to even a skilled inspector who is infrequently on-
site.
---------------------------------------------------------------------------
    \8\Title 42, Chapter 85, Subchapter 1, Part A, Section 7412. The 
relevant language (in the section on the duties of the Chemical Safety 
Board) reads ``Whenever the Administrator [this refers to the EPA 
Administrator and State agencies which have assumed delegation] or the 
Board conducts an inspection of a facility pursuant to this subsection, 
employees and their representatives shall have the same rights to 
participate in such inspections as provided in the Occupational Safety 
and Health Act [29 U.S.C. 651 et seq.].
---------------------------------------------------------------------------
    Unfortunately, WEC does not believe that EPA has ever encouraged 
workers or their union representatives to participate during their 
agency's inspections. At the urging of WEC, the DEP, which has 
delegated EPA enforcement authority under CAA 112(r), adopted a TCPA 
Administrative Order in October 2005, allowing and encouraging workers 
and their union representatives to participate in DEP RMP 
inspections.\9\ This program has proven successful, with a high 
percentage of inspections involving local union representatives. We ask 
Congress to ask EPA to issue a directive to its field staff and the 
other States with delegated enforcement instructing them to immediately 
engage workers and local union leaders during RMP inspections.
---------------------------------------------------------------------------
    \9\DEP Administrative Order 2005-05.
---------------------------------------------------------------------------
    These two examples again demonstrate why safety and security are 
inseparable and why DHS, EPA, and OSHA should address this vital matter 
through an integrated approach, not rules that give DHS inappropriate 
power and responsibility.
           principles for chemical safety and security policy
    In WEC's view, there are three underlying principles for policy 
that can effectively address chemical safety and security.
    First, facilities must be designed, operated, and maintained 
safely. No matter how many guards, gates, and surveillance cameras are 
in place, a determined terrorist who flies an airplane into a chemical 
processing unit or storage tank can kill workers and thousands of 
neighbors. The most practical way to address this threat is to prevent 
hazards in the first place--and to minimize the consequences of an 
incident if one does occur. For example, it is inexcusable that the 
Valero petroleum refinery in Gloucester County still uses a particular 
processing method involving hydrofluoric acid to make gasoline when 
their executives know that there are safer alternatives to this 
process. Oil companies are not poor. They should have to adopt safer 
methods, or at the very least, seriously consider their adoption. If 
they can't take real steps for safety, they should have to justify why 
they can't--and smaller profits is no excuse.
    Second, there must be meaningful worker and union participation. 
For example, plants must have labor-management site safety and security 
committees. These committees would meet regularly to discuss potential 
safety and security risks and ways to prevent them. These committees 
would be able to regularly inspect the workplace to identify potential 
vulnerabilities that could be exploited by terrorists or that could 
lead to a toxic exposure, explosion, spill, or fire. Requiring these 
committees is just common sense. Many joint labor/management safety 
committees already exist and help prevent hazards to both workers and 
the community.
    Third, as noted earlier, since safety and security are inseparable, 
Government agencies responsible for worker safety, environmental 
protection, and security must take an integrated and coordinated 
approach.
thirteen key elements for effective chemical safety and security policy
    WEC believes there are at least thirteen key elements for a 
minimally effective State or national policy to ensure chemical safety 
and hometown security. We believe that these policy components should 
be incorporated in Federal legislation, with the right of States to 
adopt more effective protections to address local needs, such as 
population density or the presence of particular industries.
    These elements include:

     First, regulating the appropriate scope of facilities. All 
facilities that are required to submit EPA Risk Management Plans 
because they use or process extremely hazardous chemicals should have 
comprehensive protections and States should be able to regulate 
additional facilities based on particular circumstances.
     Second, facilities must conduct a thorough vulnerability 
assessment to consider risks of both unintentional accidents and 
deliberate attacks on workers, surrounding communities, and the 
environment. Such assessments should include the potential toxic impact 
of multiple and cascading process failures.
     Third, facilities must assess perimeter protections such as 
lighting, barriers, and perimeter security.
     Fourth, facilities must, at a minimum, analyze options for their 
potential to adopt inherently safer approaches and overall systems of 
safety. Such approaches include input chemical substitution, process 
redesign, product reformulation, reducing hazardous pressures and/or 
temperatures, and improving chemical use efficiency and inventory 
control. Such analysis must include a review of available approaches 
within the facility, including where they operate in other countries, 
and within the industry overall. If a facility claims that they cannot 
financially afford to adopt measures for inherent safety, they should 
have to document the financial and other costs to workers, the public, 
and the environment of failing to take such approaches.
     Fifth, facility management must specify in writing the 
appropriate number of staff for safe operation, effective preventive 
maintenance, perimeter security, and emergency response. Many 
facilities, particularly in the chemical industry, have ``downsized'' 
and are running with fewer experienced staff even as their production 
output has stayed the same or increased. Needed maintenance, necessary 
for safety, is too often deferred. Management must specify safe 
staffing levels during all hours of operation.
     Sixth, facilities must establish joint employee/employer site 
Safety, Security and

    Environment Committees with real authority to help prevent, 
monitor, and respond to toxic releases. Safety Committees established 
by labor/management collective bargaining agreements already cover most 
manufacturing facilities. The function of such committees should be 
expanded to include security concerns. These committees should have the 
right to make recommendations to management, survey the workplace for 
risks, assist in accident and release investigations, and help develop 
safety and security assessments and plans. According to National Labor 
Relations Board decisions, in unionized facilities, the union must 
select its own representatives to committees dealing with safety and 
health, which would obviously include the prevention of catastrophic 
accidents.

     Seventh, all employees potentially exposed to hazardous chemicals 
should receive six hours of annual chemical safety and security 
training, in addition to training already required by OSHA standards. 
Such training should focus on understanding of inherently safer 
approaches and worker rights and responsibilities.
     Eighth, workers and union representatives must be able to 
participate in all aspects of Government enforcement of chemical safety 
and security rules. This includes the right to participate in all 
stages of DEP and DHS workplace inspections, including the 
accompaniment of Government inspectors to help point out potential 
hazards and vulnerabilities.
     Ninth, there must be strong whistle-blower protection that 
encourages employees in union and non-union facilities to confidently 
point out potential dangers without fear of reprisal. (The existing 
anti-discrimination provisions of OSHA are weak. New Jersey has 
relatively strong whistle-blower protections in its Conscientious 
Employees Protection Act).
     Tenth, there must be meaningful opportunities for community 
involvement. Facility management, upon request by an environmental 
agency, a Local Emergency Planning Committee, or 25 or more residents 
and/or employees, shall convene a community meeting to discuss its risk 
management program, including off-site consequence analysis, inherent 
safety options analysis, and emergency response plan. There must be 
adequate notice to the community about such a meeting and all parties, 
including employees and their union, shall be invited to participate in 
this dialogue.
     Eleventh, facilities must have stronger emergency response plans. 
Plans should include specific explanations of what actions neighbors 
should take in the event of a catastrophic release and should describe 
steps management has taken to inform neighbors.\10\ Low income and 
people of color communities, where these facilities are often located, 
face language and transportation barriers. Plans must address these 
factors.
---------------------------------------------------------------------------
    \10\Most communities in New Jersey appear unprepared for a chemical 
disaster. A WEC neighborhood survey in 2004 in Linden revealed that few 
residents had any idea of steps to take if there was a toxic release 
from a nearby industrial facility. A WEC survey of emergency responders 
and health professionals in 2005 revealed that 63 % of them did not 
even know if there was a TCPA facility in their municipality.
---------------------------------------------------------------------------
     Twelfth, there must be sufficient enforcement authority, 
financial penalties, inspection staffing and other resources for 
Government agencies to ensure compliance.
     Finally, we believe that there should be no rollback in either 
worker or public ``right to know'' protections. Weakening right to know 
laws would do little or nothing to stop terrorists but would endanger 
workers, emergency responders, and community members.

    Thank you again for the opportunity to testify and we look forward 
to supporting your efforts to ensure chemical safety and security in 
the days ahead.

    [Whereupon, at 12:30 p.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]

        Statement of Senator James M. Inhofe, U.S. Senator from 
                         the State of Oklahoma
    Senator Lautenberg, thank you for holding this hearing today. 
During my Chairmanship of this Committee, we made a lot of progress on 
chemical security. I have made national security my top priority and 
consistently supported reasonable chemical security legislation that 
provides DHS with the authority it needs to protect chemical facilities 
from terrorists without extraneous environmental mandates. During my 
Chairmanship of the Senate Environment and Public Works Committee, the 
EPW Committee has twice passed chemical security legislation in 
Committee and I was pleased to be part of group that forged a 
compromise that was finally enacted into law last year. Chemical 
industries are crucial components of the national economy and the 
infrastructure of the United States. Congress has long been concerned 
about releases of hazardous chemicals from industrial facilities and 
has enacted several statutes to help prevent such releases and to 
improve preparedness and response capabilities. Programs to protect the 
health and safety of workers, the public, and the environment by 
reducing the potential for accidental releases of potentially dangerous 
chemicals, including the consequences of worst-case releases of those 
chemicals, are in place as required by numerous Federal and State laws. 
However the events of September 11, 2001, demonstrated the need to 
ensure that appropriate security measures are taken to address the 
threat of acts of terrorism against facilities that manufacture, use, 
or process potentially dangerous chemicals.
    In the wake of September 11, 2001, there was a realization that 
chemical facilities could be targets for terrorism. Since then, the 
Bush administration has made a determined effort to protect our 
nation's critical infrastructure against terrorists who aim to harm us. 
Congress, too, has acted by enacting into law the Marine Transportation 
Security Act, the Bioterrorism Act, and a comprehensive nuclear 
security package that originated from the Environment and Public Works 
Committee. Congress has also created the Department of Homeland 
Security vesting it with power and authority to protect the nation's 
infrastructure. DHS has worked diligently and quickly to address the 
nation's security issues. In the chemical sector, DHS has deployed 
teams of counter terrorism specialists to each identified high-risk 
chemical facility to work with management, local first responders and 
law enforcement, States and other Federal agencies to assess and 
address the security needs. DHS has also created several tools to help 
all chemical facilities regardless of whether they represent high-risk 
locations. These efforts all mean that chemical facilities are more 
protected and that we are all indeed safer.
    Late last year, the Congress passed the Department of Homeland 
Security Appropriations Act of 2007 (Public Law 109-295). Section 550 
of the conference report contained provisions requiring the Secretary 
of Homeland Security to issue interim final regulations by April 6, 
2007, establishing risk-based performance standards for security of 
chemical facilities and requiring vulnerability assessments and the 
development and implementation of site security plans for chemical 
facilities that present high levels of security risk. I was pleased to 
support these chemical security provisions included in the DHS 
appropriations conference bill because I have always supported 
reasonable chemical security legislation that provides DHS with the 
authority it needs to protect chemical facilities from terrorists 
without including extraneous environmental provisions or provisions 
designed to place mandates on how companies manufacture their products 
requiring facilities to switch the chemicals they use or change their 
operating practices. During my tenure as Chairman of the Environment 
and Public Works Committee, we tried twice to move legislation to 
require certain chemical plants to upgrade their security against 
terrorist acts. Each time, we were sidetracked by the insistence of 
some that any such legislation must include allowing DHS to mandate 
inherently safer technologies. The environmental based concept of 
inherently safer technologies dates back more than a decade when the 
extremist environmental community were seeking bans on chlorine, the 
chemical that is used to purify our nation's water. It was only after 
the attacks of September 11, that these environmental organizations 
determined to repackage IST as a panacea to all of our security 
problems when in reality it is more about increased chemical 
regulation.
    I was pleased to support the chemical facility security provision 
in the conference report because it did not include these extraneous 
environmental mandates but instead properly focused efforts on 
security. The language explicitly clarified that the new regulatory 
authorities given to the Department of Homeland Security do not include 
any authorities to regulate the manufacture, distribution, use, sale, 
treatment or disposal of chemicals. These authorities have been 
properly provided to the US Environmental Protection Agency and other 
agencies and departments under numerous environmental and workplace 
safety laws, such as the Clean Air Act, the Clean Water Act, the Toxic 
Substances Control Act, the Occupational Safety and Health Act and a 
host of others.
    During consideration of the Department of Homeland Security 
Appropriations Act of 2007, legislative debate centered not only on the 
necessary components of risk-based performance standards and 
vulnerability assessments but also focused on the preemptive effect to 
State law of the chemical security regulations required by Section 550 
of the conference report. On September 28, 2006, a debate among a 
bipartisan group of Senators including Senators Voinovich, Pryor, 
Warner, and Domenici all agreed the intent of the language in the 
conference report was to impliedly preempt any State legislation on 
chemical plant security. The Senators recognized the importance of a 
single and integrated set of comprehensive standards as required by 
Section 550 being vital to the chemical industry and vital to national 
security.
    One final note about the importance of Section 550 is its 
recognition that municipally owned and operated water and wastewater 
facilities are different than privately and investor owned chemical 
facilities. The Nation's drinking water and wastewater systems are arms 
of local Government, not for-profit industries. We in Congress 
recognized the fundamental difference between the for-profit private 
sector and local Government entities when we passed the Unfunded 
Mandates Act. To have included water utilities in this language would 
have imposed an enormous unfunded mandate on our local partners in 
violation of that Act.
    Many here in Washington assume that local Governments need to be 
forced to protect their citizens. As a former mayor, I can tell you 
that is simply not true. Local water utilities have been making 
investments in security consistently since 9/11 and continue to do so. 
I have offered a bill on wastewater facility security that provides 
tools, incentives and rewards, not mandates, for local Governments to 
continue to upgrade security. My legislation passed the Environment and 
Public Works last Congress with a bipartisan vote and again this 
Congress by voice vote. However, each time the then-minority objected 
even to its consideration because they do not trust our colleagues at 
the local level to care as much about their constituents as we do ours.
    Again, this is an important topic and I welcome the opportunity to 
hear from so many residents of the State of New Jersey on the 
importance of chemical security legislation to them.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
